<html>
<title> - THE SPACE SHUTTLE AND FUTURE SPACE LAUNCH VEHICLES</title>
<body><pre>[Senate Hearing 108-1001]
[From the U.S. Government Publishing Office]






                                                       S. Hrg. 108-1001

           THE SPACE SHUTTLE AND FUTURE SPACE LAUNCH VEHICLES

=======================================================================

                                HEARING

                               before the

                 SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, 
                               AND SPACE

                                 of the

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 5, 2004

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                         U.S. GOVERNMENT PUBLISHING OFFICE 

20-624 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
























       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                     JOHN McCAIN, Arizona, Chairman
TED STEVENS, Alaska                  ERNEST F. HOLLINGS, South 
CONRAD BURNS, Montana                    Carolina, Ranking
TRENT LOTT, Mississippi              DANIEL K. INOUYE, Hawaii
KAY BAILEY HUTCHISON, Texas          JOHN D. ROCKEFELLER IV, West 
OLYMPIA J. SNOWE, Maine                  Virginia
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
GORDON H. SMITH, Oregon              JOHN B. BREAUX, Louisiana
PETER G. FITZGERALD, Illinois        BYRON L. DORGAN, North Dakota
JOHN ENSIGN, Nevada                  RON WYDEN, Oregon
GEORGE ALLEN, Virginia               BARBARA BOXER, California
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     MARIA CANTWELL, Washington
                                     FRANK R. LAUTENBERG, New Jersey
      Jeanne Bumpus, Republican Staff Director and General Counsel
             Robert W. Chamberlin, Republican Chief Counsel
      Kevin D. Kayes, Democratic Staff Director and Chief Counsel
                Gregg Elias, Democratic General Counsel
                                 ------                                

             SUBCOMMITTEE ON SCIENCE, TECHNOLOGY, AND SPACE

                    SAM BROWNBACK, Kansas, Chairman
TED STEVENS, Alaska                  JOHN B. BREAUX, Louisiana, Ranking
CONRAD BURNS, Montana                JOHN D. ROCKEFELLER IV, West 
TRENT LOTT, Mississippi                  Virginia
KAY BAILEY HUTCHISON, Texas          JOHN F. KERRY, Massachusetts
JOHN ENSIGN, Nevada                  BYRON L. DORGAN, North Dakota
GEORGE ALLEN, Virginia               RON WYDEN, Oregon
JOHN E. SUNUNU, New Hampshire        BILL NELSON, Florida
                                     FRANK R. LAUTENBERG, New Jersey
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                                     
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on May 5, 2004......................................     1
Statement of Senator Breaux......................................    19
    Prepared statement...........................................    20
Statement of Senator Brownback...................................     1
Statement of Senator Nelson......................................    17

                               Witnesses

Hickman, Robert A., Director, Advanced Launch Concepts, The 
  Aerospace Corporation..........................................    33
    Prepared statement...........................................    34
Kahn, Michael, Vice President, Space Operations, ATK Thiokol Inc.    21
    Prepared statement...........................................    24
Karas, John, Vice President, Space Exploration, Lockheed Martin..    25
    Prepared statement...........................................    27
Musk, Elon, Chairman and Chief Executive Officer, Space 
  Exploration Technologies (SpaceX)..............................    41
    Prepared statement...........................................    42
Readdy, William F., Associate Administrator for Spaceflight, 
  National Aeronautics and Space Administration; accompanied by 
  Rear Admiral Craig E. Steidle, U.S. Navy (Ret.), Associate 
  Administrator for Exploration Systems, National Aeronautics and 
  Space Administration...........................................     3
    Prepared statement...........................................     5

                                Appendix

Hollings, Hon. Ernest F., U.S. Senator from South Carolina, 
  prepared statement.............................................    49
Response to written questions submitted to William F. Readdy by:
    Hon. John McCain.............................................    50
    Hon. Ted Stevens.............................................    53
Response to written questions submitted by Hon. John McCain to 
  RADM Craig Steidle (Ret.)......................................    53
Response to written questions submitted by Dr. George E. Mueller, 
  Chief Executive Officer, on Behalf of Kistler Aerospace 
  Corporation....................................................    54
 
           THE SPACE SHUTTLE AND FUTURE SPACE LAUNCH VEHICLES

                              ----------                              


                         WEDNESDAY, MAY 5, 2004

                               U.S. Senate,
    Subcommittee on Science, Technology, and Space,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:37 p.m. in 
room SR-253, Russell Senate Office Building, Hon. Sam 
Brownback, Chairman of the Subcommittee, presiding.

           OPENING STATEMENT OF HON. SAM BROWNBACK, 
                    U.S. SENATOR FROM KANSAS

    Senator Brownback. Good afternoon. Thank you all for 
joining me. The reason for my delay is, because I thought we 
had a vote at 2:30. They did have it scheduled for 2:30, but it 
has been moved to 2:45. So I thought what we'd do is try to get 
the hearing underway, and see how far we can proceed, because 
these things have a way of sliding on us. We're not the only 
ones that have trouble keeping schedules. But we'll want to 
move on through the hearing.
    Today, we're going to consider something that is difficult, 
rocket science. Some years ago, a major cruise ship company 
coined a phrase that ``getting there is half the fun.'' Nowhere 
is that truer than for space travel. Rocket scientists tell us 
that once a spacecraft is in low-Earth orbit, just a few 
hundred miles above us, we're halfway to anywhere in the solar 
system, including the Moon and Mars.
    This first step, lifting off the Earth and entering low-
Earth orbit, is expensive and dangerous, but it's part of space 
travel. Astronauts or robotic spacecrafts spend the first few 
minutes of their journey into space sitting atop a rocket that 
releases as much energy as that contained in a small atomic 
bomb. The cost and risk of getting into space has not changed 
in the almost-half-century since we began space travel.
    Today, our primary means of getting people and equipment 
into space for NASA is the Space Shuttle. It's a magnificent 
piece of technology. However, twice in the past 20 years, it 
has failed, taking the lives of 14 astronauts with it. It's 
expensive, as well, costing the American taxpayer effectively a 
billion dollars per flight. Today, it's grounded, and we are 
relying on foreign hardware to get our people into space and 
maintain the International Space Station.
    A few months ago, the President announced a new vision, 
focused robotic and human exploration of the solar system, 
beginning with the Moon and Mars. I support the President's 
vision and like many of my colleagues in the Congress, need 
some more information from NASA and the space community on key 
issues. None is more critical than access to space, and that's 
why we're here today.
    I see three related questions:
    First, we need to understand the true status of the Space 
Shuttle and its return to flight. Implicit in this issue is 
whether we might be better off phasing out the Space Shuttle 
sooner than the President's 2010 date, and use the resources to 
move the schedule for our expansion into the solar system 
forward.
    The second question is how best to meet our international 
commitments with respect to the International Space Station 
with less or perhaps no use of the Space Shuttle at all. This 
is a key question, one which we cannot address in full detail 
today, but I hope to get started on. Thus, I intend to hold 
further hearings on this, including a field hearing, I hope, in 
California later this month.
    Finally, the experts tell us that to accomplish the 
President's bold goals in exploration beyond low-Earth orbit 
requires much larger payloads than we can launch today. The 
Shuttle and our military big rockets, the EELV, can put about 
20 tons into low-Earth orbit. We may need five times that per 
launch, which is feasible due to such giant rockets as Saturn 
V, from the Apollo program. Soviet Union built a huge booster 
to launch similar payloads during the Moon race, and again in 
the 1980s to launch enormous space weapons; these programs are 
all gone. So we must ask our space community how they might 
reconstitute the capability, and how much it will cost.
    Let me now turn to the Space Shuttle. Since I assumed the 
chairmanship of this Subcommittee over a year ago, I've asked 
repeatedly whether we might be off phasing the Space Shuttle 
out soon and I know that my questions are disturbing to many. 
Some of my colleagues in the Senate have rallied to the defense 
of Space Shuttle, and I expect to hear more on that today, 
which is how it should be. We should have a vigorous discussion 
and debate about the Shuttle program, where those who see 
something to lose will be vigorous opponents of the new 
direction. Conversely, those with something to gain in the 
future are only lukewarm supporters at times. Despite this 
opposition, I intend to continue to press these questions and 
to ask the serious questions about the future of the Space 
Shuttle program.
    I've asked NASA to tell us today what they are doing and 
how well it's going on returning the Shuttle to flight. I also 
asked NASA what they're doing to find alternatives to the Space 
Shuttle for completing the International Space Station. The 
Commercial Space Act of 1998 calls for maximum use of 
commercially provided services in support of the International 
Space Station. I've been approached by a number of commercial 
providers of such services, some of which believe they can 
provide most, if not all, support services needed to complete 
and maintain the Space Station and meet our international 
commitments.
    In 2002, the United States Alliance, who operates the Space 
Shuttle for NASA, recommended that roughly a third of the 
Shuttle flights be offloaded to other vehicles. For our hearing 
at the end of May, I'll ask that NASA describe their approach 
to making fuller use of this private-sector capability. We want 
to, and we need to, examine these ideas as we move forward in 
the future.
    A week ago, we held a hearing to consider what other 
nations are doing in space exploration and heard that many 
nations have aspirations of human exploration and expansion to 
the Moon and Mars. Experts agreed that nations such as China 
will expand into space regardless of what we do. I, for one, 
believe we must not ever be in a position of explaining to our 
children why others are walking on the Moon and Mars, as well 
as reaping the benefits of space, while we are not. 
Fortunately, we have an advantage that others do not in that we 
have a private sector that can do anything, if only given a 
legitimate chance. We also have a great deal of ingenuity, in 
ourselves, that we can move forward on these programs.
    The American people can have a space program that leads the 
world--which is the current situation--and we need that in the 
future. It can be a space program firmly embedded in 
opportunity for all, and that's what I want to examine today.
    I believe President Bush has set us on the right path to an 
unlimited space future. I strongly support this exploration 
vision and program, and urge my colleagues in Congress to do 
the same.
    To give you a bit of an idea of where I hope we can go, I 
want to hold this hearing today. We'll have a field hearing, I 
hope, in Southern California to look at other prospects for 
being able to take care of Space Shuttle, the Moon/Mars 
missions, and different ideas that people there might have. And 
then, from that point forward, I hope we're going to be able to 
put forward legislative language, authorizing language, in 
looking at how we might move forward.
    I see that the commission the President appointed had its 
last field hearing yesterday, in New York, on Moon and Mars. 
I'm looking forward to their report and what they have coming 
out, which then I hope we can put together in: ``What's the 
architecture for our space program and manned space mission 
into the future?''
    Delighted to have our panels here today with us to testify, 
and we'll start off with the first panel, Mr. William Readdy, 
Associate Administrator for Spaceflight of NASA, and Rear 
Admiral Craig Steidle, Associate Administrator for Exploration 
Systems out of NASA, as well.
    Gentlemen, thank you for joining us. We're going to 
continue this as long as we can, and then I may have to put us 
in recess for a brief period of time. We look forward to your 
presentations.
    Mr. Readdy?

                STATEMENT OF WILLIAM F. READDY,

            ASSOCIATE ADMINISTRATOR FOR SPACEFLIGHT,

         NATIONAL AERONAUTICS AND SPACE ADMINISTRATION;

         ACCOMPANIED BY REAR ADMIRAL CRAIG E. STEIDLE,

         U.S. NAVY (RET.), ASSOCIATE ADMINISTRATOR FOR

           EXPLORATION SYSTEMS, NATIONAL AERONAUTICS

                    AND SPACE ADMINISTRATION

    Mr. Readdy. Yes, sir. Thank you, Mr. Chairman. And I 
appreciate you holding the field hearing, particularly, there 
at Clear Lake, to address the exploration vision. I also thank 
you for the opportunity to testify before you today. And Craig 
Steidle, Associate Administrator for Exploration Systems, is 
with me, and he'll be available to take your questions.
    Earlier today, I had the opportunity to meet with NASA's 
newest astronaut candidate group. The class will be announced 
tomorrow at the Udvar-Hazy facility out at Dulles. This is a 
very impressive group of individuals, and I hope you'll have a 
chance to meet them soon. They're the ones that will lead us in 
the next steps to NASA's new exploration vision.
    Let me begin with the vision for space exploration. It is 
to advance U.S. scientific, security, and economic interests 
through a robust space exploration program. The vision is bold 
and forward-thinking, yet practical and responsible. 
Fundamentally, it is not about a particular launch vehicle or 
other hardware, but the relevance and value that space 
exploration brings to our lives daily.
    The Space Shuttle and International Space Station programs 
provide transition paths into this next era of space 
exploration. They're a bridge between what we've learned from 
this extraordinary first-generation reusable-launch system and 
the long-duration spaceflight experience that we have on 
International Space Station and our future.
    The focus of the Space Shuttle is to complete assembly of 
International Space Station, including U.S. components that 
support our exploration goals and those provided by our foreign 
partners so that we can conduct the research necessary to 
prepare us for our journey beyond low-Earth orbit. And, as you 
said, Robert Heinlein's quote is: ``Earth orbit is halfway to 
anywhere in the solar system.'' And, indeed, it's true, in 
terms of energy.
    No other vehicle in the world can do the Shuttle's job 
today, which is in a class by itself, in terms of performance 
and volume. It's a unique mix of cargo, crew, robotic 
capability, rendezvous and docking capability, and the ability 
to return payloads to Earth.
    There's a lot of launch capacity out there today. New 
vehicles are currently under development and are being 
conceived in the private sector. But the other launch vehicles 
that are available, even the ones at the heavy-lift end of the 
spectrum, Titan IV and Delta IV Heavy, had no existing 
rendezvous, docking, or robotics capability; they do not carry 
crew; they cannot currently support ISS assembly; and they 
cannot return payloads to Earth.
    The ISS was designed to be carried into space and assembled 
using the Space Shuttle. The elements have already been built, 
tested; and most of them are integrated and awaiting launch at 
the Kennedy Space Center. Switching to expendable launch 
vehicle at this point would result in what we estimate to be a 
minimum of four to 5 year's delay in resuming ISS assembly, and 
require significant investments to add new capabilities, as 
well as redesign and retesting of those Space Station elements. 
Therefore, NASA believes the most responsible way forward is to 
use the unique capabilities of the Shuttle for assembly, return 
of payloads to Earth, and crew transport.
    The best role, however, for commercial launch services, is 
to provide future ISS resupply. And NASA seeks to release a 
request for proposal in mid-2005 to acquire capability for 
meeting resupply requirements after ISS assembly is completed.
    As we look to the future, all options to meet launch 
requirements are on the table and NASA's wide-ranging missions 
require a variety of launch services. To meet these customer 
needs, NASA already uses a mixed-fleet strategy to purchase 
commercial launch services from a range of providers, as well 
as launches provided by our international partners; NASA has 
historically supported emerging launch companies. Through a 
biannual on-ramp of the NASA launch-services contract that 
occurs every February and August, we invite companies with new 
launch capability to submit their proposals for NASA 
consideration. Also, NASA will hold a pre-proposal conference 
next week at the Kennedy Space Center regarding small-launch 
capability.
    NASA also partners with the Department of Defense, Defense 
Advanced Research Projects Agency, and the Air Force, all of 
whom have interest and requirements requiring small launch 
vehicles.
    With regard to heavy-lift capability in order to support 
the vision for space exploration, my office is working very 
closely with Craig Steidle and his staff to understand the 
requirements for space exploration and conduct the trade 
studies necessary to meet those requirements. Those trade 
studies include evolving the existing fleet of expendable 
launch vehicles, the potential for using Space Shuttle 
components, and the potential for clean-sheet new vehicle 
designs. We're also reviewing previous lessons learned as a way 
to springboard future studies to support the unique 
requirements of the crew exploration vehicle. These activities 
will position us for future acquisition of heavy-lift 
capability.
    With this vision, we are embarking on a journey, not a 
race. We begin this journey of exploration and discovery 
knowing that many years of hard work and sustained effort will 
be required, yet we look forward to achieving these concrete 
results in the near term.
    The vision requires decisions to secure long-term U.S. 
space leadership. This vision provides an exciting set of major 
milestones with human and robotic missions, like there is 
currently ongoing in Mars, and onboard the International Space 
Station with Expedition 9, and invites new ideas and innovation 
in the private sector. Accomplishing this bold, new vision will 
provide the opportunity for new generations of Americans to 
explore, innovate, discover, and enrich our Nation in ways 
unimaginable today.
    Thank you, sir.
    [The prepared statement of Mr. Readdy follows:]

 Prepared Statement of William F. Readdy, Associate Administrator for 
      Space Flight, National Aeronautics and Space Administration
    Mr. Chairman and Members of the Subcommittee, thank you for this 
opportunity to appear today to discuss the Space Shuttle and future 
launch vehicles. When the President visited NASA Headquarters on 
January 14 and announced the Vision for Space Exploration, he presented 
a vision that is bold and forward thinking, yet affordable and 
achievable. He stated that the first order of business was to safely 
return the Space Shuttle to flight as soon as practicable, complete 
assembly of the International Space Station (ISS), and fulfill the 
commitments to our International Partners. Once the ISS assembly is 
complete, planned for the end of the decade, the Space Shuttle--after 
nearly 30 years of duty--will be retired from service. These are the 
first steps on the journey to fulfill the Vision for Space Exploration.
    After the Challenger accident, NASA has relied on a Mixed Fleet 
Launch Strategy to meet the launch requirements of NASA's diverse 
program objectives. This Mixed Fleet Launch Strategy takes advantage of 
both domestic and partner launch capability and enables focused use of 
the unique Space Shuttle capabilities. Our approach enables us to 
continue to support the ISS through reliance on partner assets, while 
NASA addresses the Columbia Accident Investigation Board (CAIB) 
recommendations and focuses on returning the Shuttle safely back to 
flight. Since the Columbia accident, NASA has continued flying 
important science missions, including deployment of the Space Infrared 
Telescope Facility, now called the Spitzer Telescope, and the back-to-
back Mars missions last summer on domestic commercial launch systems. 
NASA expects to continue this Mixed Fleet Strategy as we embrace the 
new challenges of the Vision for Space Exploration.
Space Shuttle Return to Flight
    As the loss of Columbia and her crew has reminded us, working in 
space is inherently risky. The CAIB recognized the risks associated 
with operating the Space Shuttle and made its recommendations 
consistent with the overriding objective of safety. NASA recognizes 
these risks and is working to mitigate them, while moving forward to 
accomplish our missions.
    On April 26, 2004, NASA provided to Congress the latest version of 
NASA's Implementation Plan for Space Shuttle Return to Flight and 
Beyond. This plan details the currently anticipated work schedule and 
cost estimates for Return to Flight (RTF) activities so that we can 
safely return the Space Shuttle to flight. In addition to providing 
updates on NASA's progress towards RTF, the implementation plan 
recognizes the long-term goals of human planetary exploration outlined 
in the Vision for Space Exploration.
    The planning window for the next launch of the Space Shuttle is 
currently scheduled for March 6, 2005--April 18, 2005. Prior to launch, 
NASA must successfully address all fifteen RTF recommendations from the 
CAIB. The RTF Task Group, chaired by Richard Covey and Thomas Stafford, 
is charged with assessing the implementation of these recommendations. 
The Task Group, as of April 15, 2004, agreed to close three RTF 
recommendations. The three recommendations that have been closed are:

  <bullet> Recommendation 3.3-1--Develop and implement a comprehensive 
        inspection plan to determine the structural integrity of all 
        Reinforced Carbon-Carbon system components. This inspection 
        plan should take advantage of advanced non-destructive 
        inspection technology.

  <bullet> Recommendation 4.2-3--Require that at least two employees 
        attend all final closeouts and intertank area hand-spraying 
        procedures.

  <bullet> Recommendation 6.3-2--Modify the Memorandum of Agreement 
        with the National Imagery and Mapping Agency to make the 
        imaging of each Shuttle flight a standard requirement.

    NASA is committed to addressing all CAIB recommendations, as well 
as self-initiated ``raising the bar'' actions. The updated 
implementation plan shows that NASA continues to make progress in all 
efforts to make the Shuttle safer. The revised schedule for 
implementing the CAIB recommendations shows that NASA has a deliberate 
approach for achieving all necessary milestones required to close each 
action item.
    When we return to flight, the Space Shuttle will be the safest it 
has ever been. NASA has confidence in its ability to maintain that 
level of safety throughout the life of the Space Shuttle program. NASA 
is also confident that the Space Shuttle program can accomplish its 
role in the Vision for Space Exploration to complete International 
Space Station assembly.
    The focus of the Space Shuttle will be finishing assembly of the 
International Space Station (ISS). With its job done, the Space Shuttle 
will be phased out when assembly of the ISS is complete, planned for 
the end of the decade. NASA will determine, over the next year, how 
best to optimize the use of the Space Shuttle fleet for the remainder 
of its service life, and what investments are required to ensure its 
safety, reliability and maintainability during this period.
International Space Station
    NASA plans to complete assembly of the International Space Station 
(ISS) by the end of the decade, including those U.S. components that 
will ensure our capability to conduct research in support of the new 
Vision for Space Exploration goals and those components planned and 
provided by our International Partners. The unique capabilities of the 
Space Shuttle are essential to the successful completion of the ISS. 
The ISS and its elements, most of which are already built, have been 
designed to take advantage of the more benign Shuttle flight 
environment in the Shuttle's cargo bay, removed and repositioned by the 
Shuttle's robotic arm, and connected together by the Shuttle's 
astronaut crews during space walk activities.
    The International Space Station (ISS) research plans, assembly 
sequence, and final configuration are being re-examined as part of the 
Agency refocus to meet the Vision for Space Exploration. How we support 
the ISS through its assembly and operational phases is also under re-
examination. NASA will continue its Mixed Fleet Launch Strategy and 
optimize existing partner assets as we assess opportunities using 
domestic capabilities to support the ISS. NASA is targeting completion 
of the re-evaluation of assembly, utilization, logistics, and 
maintenance requirements of the ISS for later this summer. The ISS 
program is currently working closely with our International Partners to 
develop a plan for meeting the revised requirements. We expect a 
refinement of our Mixed Fleet Launch Strategy including Space Shuttle 
launch requirements needed to complete assembly of the ISS to be an 
outcome of this process.
    The ISS Mixed Fleet Strategy concept of operations for the ISS has, 
to date, included the Space Shuttle and Russian provided Soyuz and 
Progress vehicles. In the future, it will also include the European 
Automated Transfer Vehicle, and the Japanese H-II Transfer Vehicle, 
which are both currently under development. NASA is also evaluating 
opportunities for augmenting the Mixed Fleet with additional domestic 
launch systems. To this end, the President's FY 2005 Budget Request 
includes funding for initiation of an ISS crew and cargo capability. 
NASA plans to release a request for proposals in mid-2005 to acquire 
capability for meeting ISS operations requirements as soon as practical 
and affordable.
    The ISS offers us a tremendous opportunity to study human survival 
in the hostile environment of space and assess how to overcome the 
technology hurdles to human exploration beyond Earth orbit. NASA 
research activities aboard the ISS will be focused to support the new 
exploration goals, with an emphasis on understanding how the space 
environment affects astronaut health and capabilities, and on 
developing appropriate countermeasures to mitigate health concerns. ISS 
will also be vital to developing and demonstrating improved life 
support systems and medical care. Over the next year, the Biological 
and Physical Research Enterprise will conduct a thorough review of all 
research activities to ensure that they are fully aligned with and 
supportive of the new Vision for Space Exploration.
    The ISS is preparing us for future human exploration in many ways. 
It is an exploration research and technology test bed. It is a platform 
that represents an unprecedented accomplishment for space engineering 
and on-orbit assembly of unique and complex spacecraft. It is a model 
for future space operations, linking mission control centers on three 
continents to sustain space flight on-orbit operations--twenty-four 
hours a day, seven days a week--by an international team composed of 
representatives from the U.S., Russia, Europe, Japan and Canada. 
Perhaps the most significant contribution of the ISS Program is that it 
is a foundation for international partnerships and alliances between 
governments, industry, and academia in space exploration. The success 
of the ISS assembly to date and its continued successful operation 
during the absence of the Space Shuttle launches is a tribute to the 
engineering excellence and successful cooperation of the international 
team.
    The capability of this model is further evidenced by the successful 
launch of a new crew to the ISS and the return to Earth of the previous 
crew last week. The Expedition 9 crew, NASA ISS Science Officer Mike 
Fincke and Russian cosmonaut Commander Gennady Padalka, were launched 
to the ISS from Baikonur Cosmodrome in Kazakhstan on April 18, 2004 EDT 
on ISS Flight 8S (Soyuz TMA-4). Finke and Padalka, along with European 
Space Agency astronaut Andre Kuipers of The Netherlands, docked to the 
ISS on April 21, 2004 EDT.
    After a week and a half of successful experimentation and handover 
activities, Kuipers then joined the Expedition 8 crew, Commander and 
NASA ISS Science Officer Mike Foale and Russian cosmonaut Flight 
Engineer Alexander Kaleri on ISS Flight 7S (Soyuz TMA-3) for their 
return to Earth April 29, 2004, 8:11 PM EDT.
    Mission Control Center (MCC)-Houston and MCC-Moscow continue to 
work closely and efficiently to resolve anomalies, perform avoidance 
maneuvers, monitor Soyuz and Progress dockings, and re-boost and 
reorient the ISS as required. There are on-going ISS technical 
challenges, but the corrective maintenance is performing better than 
anticipated. Anomalies are being addressed, and overall the system is 
consistently stable. The operations teams have successfully resolved 
system anomalies, but continue to watch crew heath maintenance systems, 
Russian life-support systems, attitude control, and various components 
of cabin pressure. All of these on-orbit scenarios and changing 
situations from which we are prepared to safely deal with and learn 
from, will better enable NASA to fulfill the Vision for Space 
Exploration.
International Space Station Assembly Transportation Alternatives
    To meet the goals laid out in the Vision for Space Exploration, 
NASA is evaluating the current manifest for flights to the ISS. To 
complete ISS assembly b the end of the decade, NASA is reviewing the 
assembly sequence and final ISS configuration, as well as the 
complement of currently available and proposed domestic and 
international vehicles that are capable of delivering crew and cargo to 
and from the ISS, and the predicted Shuttle return to flight date. This 
evaluation, which will factor in the historic turn around time between 
Shuttle flights, is expected to be complete in the summer and will 
provide a better idea of how many Shuttle flights will be needed to 
complete assembly of the ISS. NASA will trade ISS requirements against 
launch capabilities to ensure that the Shuttle can be operated safely 
and the ISS assembly can be completed by the end of the decade, 
consistent with the Vision for Space Exploration.
    Conducting ISS assembly mission using vehicles other than the 
Shuttle would be very difficult. Prior to and since the Columbia 
accident, NASA has assessed alternative launch capabilities to support 
ISS assembly in addition to crew and cargo re-supply studies. The 
difficulty in replacing the Shuttle in ISS assembly is that ISS 
elements and partner facilities have been designed to take advantage of 
the Space Shuttle's unique volume and performance, and more benign 
launch environment. None of the domestic or partner launch systems have 
the capability to meet requirements for assembly of remaining ISS 
elements without significant modification of either the vehicle or the 
ISS elements.
    For example, NASA could invest in upgrades to the heaviest planned 
versions of domestic Expendable Launch Vehicles (ELVs) to address 
current mass and volume shortfalls. There remain, however, significant 
challenges that drive risk, schedule, and cost to accommodate the 
transition in operations concept for ISS assembly items that are 
already built and designed specifically for the Shuttle capabilities 
and launch environment. The most driving challenge is how to define a 
new operations concept and assembly process that uses ISS crew without 
the benefit of the Shuttle's remote manipulator arm or space walking 
crewmembers to safely complete each assembly mission. Investment would 
also be required to develop a domestic transfer vehicle capability and 
define new operations concepts to enable ELV deployment and element 
rendezvous and docking with ISS. The existing ISS structures and 
facilities would need to be redesigned to meet the new ELV flight 
environment and would also need to develop an ELV carrier to replicate 
Shuttle attach points. Due to multiple parallel development and test 
schedules that would be required, NASA estimates that canceling the 
Shuttle now and using only ELV's to build the ISS would result in a 
minimum four to five year delay in restarting ISS assembly.
    The significant challenges and risks associated with replicating 
the Shuttle's capability for the remaining assembly flights have led 
NASA to focus on use of the Shuttle for assembly of the ISS, while 
continuing to pursue alternatives to the Space Shuttle for non-assembly 
tasks and post-Shuttle ISS support.
Partnerships
    The Office of Space Flight is working closely with the Office of 
Exploration Systems and the Department of Defense to understand 
evolving launch requirements to ensure an integrated National launch 
strategy within the stagnant launch market. NASA, the United States Air 
Force, and the National Reconnaissance Office held the fourth 
Government and Industry ELV Mission Assurance Forum on March 9-10, 
2004. At this year's forum NASA shared lessons learned from the CAIB 
review of the Space Shuttle program as we are applying them to our 
launch services program.
    This forum was originally established by our agencies to ensure 
that the lessons learned from the 1998 Presidential Broad Area Review 
into ELV launch failures are not forgotten. The Broad Area Review 
identified the importance of government users to serve as knowledgeable 
buyers of launch capability and the benefit of value added government 
technical oversight to enhance mission success. A critical lesson not 
to be relearned is the importance of added government diligence in the 
area of systems engineering when programs and their contractors are in 
periods of transition and/or under severe cost pressures. This is 
exactly the environment the Nation faced in 1998.
    To formalize our cooperative efforts, NASA and members of the 
Defense community established the Partnership Council in 1997 to 
provide an opportunity for the senior space principals to meet face-to-
face on a regular basis to discuss issues relevant to the space 
community. The purpose of the Partnership Council is to facilitate 
communication between the organizations and to identify areas for 
collaboration and cooperation. Much of the benefit of the Partnership 
Council is the day-to-day activities and relationships built within the 
government community engaged in space.
Summary
    NASA's Mixed Fleet Launch Strategy is being updated to address the 
Vision for Space Exploration. NASA is developing a strategy to acquire 
ISS crew transport, as required, and cargo transportation as soon as 
practical and affordable. NASA envisions that commercial and/or foreign 
capabilities will be the building blocks for our future Mixed Fleet 
Launch Strategy, as it has served us well. NASA remains confident that 
the Space Shuttle can be operated safely for the remainder of its 
service life and the ISS can be completed by the end of the decade 
consistent with the Vision for Space Exploration and our international 
commitments.

    Senator Brownback. Thank you, Mr. Readdy.
    Admiral Steidle, would you care to make a statement, or do 
you just want to respond to questions?
    Admiral Steidle. I just want to respond to your questions, 
sir. Thank you.
    Senator Brownback. All right. Thank you very much.
    Mr. Readdy, I believe you mentioned in your testimony that 
if we move away from the Shuttle, it would delay the finishing 
of ISS by 4 to 5 years. Is that correct?
    Mr. Readdy. Yes, sir, that's correct.
    Senator Brownback. NASA has studied the option about 
decommissioning the Shuttle and going another way to finish 
ISS, is that correct?
    Mr. Readdy. Yes, sir, we have. And the study that I 
referred to here, and the procurement that we're talking about 
in 2005, is contained our budget request for $140 million. And 
we intend to replicate the up-and-down mass of the Shuttle. 
Thus far, our discussions with the industry reps estimate that 
there is between 700 and a billion dollars of nonrecurring 
costs, and then recurring costs for a flight rate of eight to 
twelve per year to meet our requirements, which means the 
development time, as I said earlier, is somewhere between 3 and 
5 years.
    Senator Brownback. Well, let me back up on that, then. So 
if we just said, ``OK, we're going to take the Shuttle, and 
we're not going to fly the Shuttle anymore,'' how would you 
then finish ISS? What would be the systems that would be used 
to finish ISS, in the study that NASA has done?
    Mr. Readdy. Well, right now, it would require a complete 
redesign of the hardware that we already have tested, built, 
and integrated at the Kennedy Space Center. So one issue is 
that the existing hardware would have to be deintegrated. It 
would probably have to be redesigned and certainly re-analyzed, 
then repackaged to launch on expendable launch vehicles.
    The other things that would be required are to develop the 
autonomous rendezvous, docking, and robotic capability, as well 
as new payload fairings and interfaces for whatever vehicle 
might be chosen in order to lift something that heavy to the 
International Space Station orbit.
    Senator Brownback. How would it be lifted up? You're saying 
you'd have to develop new capacity, or is there private-sector 
groups that have put forward proposals to you to lift this?
    Mr. Readdy. At this point, sir, there are two remaining 
Titan IVs, which are the only equivalent to the Shuttle cargo 
bay, in terms of capacity. Also, Titan IV doesn't have robotic, 
rendezvous or docking capability. There are only two of those 
launch vehicles left in the inventory, and they're committed to 
national security purposes; I think they launch in 2005.
    The nearest-term heavy-lift vehicle currently available is 
Delta IV. The very first test flight of that is supposed to be 
in the fall of this year in order to try and replicate a 
similar 20-ton-to-orbit capacity. And, once again, it has no 
rendezvous, docking, proximity ops, or robotics capability to 
accommodate the unique hardware of the International Space 
Station.
    Senator Brownback. What about anything that the Russians or 
other countries have that could carry out the lift capacity of 
the final pieces of ISS?
    Mr. Readdy. That's a good question, sir. In 1993, in the 
Space Station redesign we conducted in Crystal City, we looked 
at a variety of alternatives, such as launching the 
International Space Station in three major elements, or looking 
at it as a Russian derivative. In the end, the option that we 
chose was a hybrid.
    The Russians have launched hardware to the International 
Space Station, including the FTB, which is the propulsion 
module that's up there right now, a service module, and other 
very small pieces with their Soyuz boosters, which do have a 
Proton capability, but that does not suffice to boost the large 
elements that we have; nor does it have robotic capability.
    Senator Brownback. You mentioned, though, about taking the 
large elements we have, and reconfiguring them. Are you 
suggesting breaking those down into smaller parts to be able to 
lift?
    Mr. Readdy. Sir, I'm not even sure that that's feasible. At 
this point, we haven't even looked at how complex it would be 
to do that.
    Senator Brownback. But in NASA's analysis of the future use 
of the Space Shuttle, and then shipping them up on a Russian 
vehicle analyzed?
    Mr. Readdy. We don't think that that's feasible right this 
minute nonetheless, and our near-term objective, spelled out in 
the vision for space exploration is to return the Shuttle to 
safe flight in accordance with the Columbia Accident 
Investigation Board's findings and recommendations, which we're 
on track to do; we were reviewed last week by the Stafford-
Covey Task Group. Also, we have the ``Space Shuttle Return to 
Flight and Beyond'' implementation plan that was just issued 
last week. And we're making steady progress toward returning to 
flight in March or April of next year.
    Senator Brownback. Now, if we don't return the Shuttle to 
flight, have you contacted the Russians about the possibility 
of them taking up more of the parts to finish the ISS? If yes, 
whether or not they would be able to do so? Could they 
reconfigure some of their work or could we reconfigure the 
parts, in order to lift the equipment into space?
    Mr. Readdy. Well, I have to commend all our partners for 
how well, during the Shuttle down period, we have operated 
together; the Europeans have been particularly supportive, as 
have the Russians. Certainly, they have launched all the crew 
members to International Space Station here in the interim--
most recently, Expedition 9. They have also launched progress 
vehicles for propellent, food, water, and some limited spare 
parts.
    Our current operation, though, is constrained by logistics. 
Just like an expedition to Antarctica or a deployed carrier 
battle group, logistics drives exploration. It did in 
Shackleton's time, during his voyages. At the moment, we have 
reduced the crew onboard to two crew members in order to be 
sustainable, given the Progress resupply vehicles that we have 
available to us today.
    The Russians and we both learned, during the Shuttle-Mir 
era, that Progresses alone were not sufficient. In terms of the 
partnership, though, we have the ATV, which is the autonomous 
transfer vehicle, being designed and built by the European 
Space Agency right now, over in Bremen and is being integrated. 
The ATV should be ready for flight next year aboard an Ariane V 
launch vehicle that will provide additional logistics 
redundancy and a much larger capacity, similar to what the 
multipurpose logistics module can launch.
    Senator Brownback. Let me sharpen this question, because 
I'm going to have to put us in recess right after this.
    Have you contacted the Russians about them being able to 
finish ISS, and said: ``Would you look at this? Do you have the 
capacities? And over what time frame and cost would it take for 
you to finish this?''
    Mr. Readdy. We have a heads-of-agency meeting that's 
planned for the end of July over in Noordwijk, Holland, where 
the heads of all the agencies--Canadian, Russian, European, and 
Japanese--will meet with the NASA Administrator, where we're 
going to discuss the way ahead and what we view to be the 
trades involved in the final configuration of International 
Space Station.
    At this point, the Russians were, in fact, relying on 
Shuttle for logistics up front, such as to launch their power 
platform. Therefore, we're going to have to engage in this 
dialogue with our partners to establish what the way ahead may 
look like.
    Senator Brownback. The reason I'm asking the question that 
a lot of Members are asking right now, is because Shuttle's 
done great work, but it is very expensive to operate. Do we 
need to continue this, or is there another way to finish ISS 
without the Shuttle? And I realize there's a very clear answer 
here of, say ``No, we just need to get the Shuttle back and 
flying, because that's the way it's all configured, and that's 
the way it's designed to operate.'' And I understand that 
answer, which is a legitimate response. I just want to make 
sure that we have looked at all other possible options 
regarding this. If we're going to move on to another set of 
missions, is there another way, or have we examined all of the 
other options?
    Mr. Readdy. Yes, sir. What we are doing is, we are 
critically reviewing the manifests in the way ahead to make 
sure that each and every one of those flights buys its way in, 
that each and every one of those, not only in sequence is 
required, each and every one of those capacities is required to 
support exploration. Because that's what this is about--going 
to the vision--is to inform us on countermeasures to support 
humans for long duration in Earth orbit, so that we can go 
beyond low-Earth orbit. And that requires a larger capacity 
than we have onboard International Space Station right now, a 
larger number of crew members, potentially scores of crew 
members, as opposed to right now, where we can fly four crew 
members per year in the current configuration.
    So clearly that's something that we are looking at within 
the International Space Station program, in terms of, not only 
assembly, but how to get way up on the glide slope in terms of 
logistics, so it will be sustainable for the long term using 
other modalities, as opposed to Shuttle.
    The line-replaceable units for International Space Station, 
those major assemblies, like the control momentum gyros, were 
designed, from the very beginning, to be maintained on the 
ground, refurbished on the ground, troubleshot on the ground, 
and then launched again. So we're going to have to look 
completely at the logistics tale for International Space 
Station and see what other modalities we might use when we no 
longer have the Shuttle available for down-mass and up-mass for 
large assemblies.
    Senator Brownback. Mr. Readdy and Admiral, if you can stay 
around for a few minutes, I need to go over and vote. We're at 
the back end of this vote. I'll vote and then be back. We'll 
probably be in recess about 15 minutes.
    Thank you.
    [Recess.]
    Senator Brownback: We'll call the hearing back to order. 
Sorry for the extended recess.
    Mr. Readdy, I want to follow up on the line of questioning 
we were on before I left. Also, let me say at the outset, I 
appreciate the great work you folks do at NASA. So, I apologize 
for the pointed questioning at times, but we're looking at 
where we're going to invest in the next set of technologies, 
and the decisions made now will have impact for decades to 
come. Hence, I want to make sure that we're making the right 
sort of decisions and we have all the information in front of 
us when we make these decisions.
    That's why I'm asking about particularly our inquiries to 
the Russians or the private sector on finishing ISS, which 
seems to be the major reason for continuing to have the Space 
Shuttle at this point in time; that is, to finish ISS. Would 
that be correct?
    Mr. Readdy. Yes, sir. And if I could clarify my previous 
answer with respect to Russian capability, European capability, 
private-sector capability--I think a trip down to the Space 
Station processing facility to actually see the hardware would 
be extremely instructive. Like a picture is worth a thousands 
words, when you go down there, you see the building and see it 
full of the hardware that has already been tested, checked out, 
integrated, and ready for launch, some people have an 
impression of Space Station, because it is modular, that it's 
an Erector Set or it's a Lego set that can be taken apart and 
put back together again. But when you get down there, and if 
you see each one of those launch packages, you realize just how 
complex a truss element is; it contains electronics that go 
into it. And because it goes around the Earth once every hour 
and a half, it experiences extremes in temperature from being 
in sunlight and in darkness. And the entire Space Station has 
to play together as an integrated element; Russian elements, 
Japanese elements, European elements, and our own. To repackage 
any of those, irrespective of what kind of launch vehicle, to 
change the loads from what the Shuttle experiences, which are 
relatively benign during ascent, only three Gs, where we 
throttle the main engines back for about the last minute or so 
before main-engine cutoff, as Senator Nelson's familiar, that 
provides a very benign set of loads. So the Space Station 
hardware has a very minimal set of design requirements for 
launch. If we were to repackage it, put it on any other kind of 
launch vehicle, it would require extensive analysis, possibly 
redesign, and de-integration/reintegration, sir.
    Senator Brownback. I think you or the Administrator have 
previously mentioned it previously to me that you would have to 
do that.
    My question really is, have we searched through all the 
options thoroughly?
    Mr. Readdy. Yes, sir, we think we have.
    Senator Brownback. Well, let me ask specifically, though, 
because your--very troubling to me earlier, when I asked you if 
you had officially contacted the Russians about them finishing 
ISS; and I take it from your answer, we have not.
    Mr. Readdy. Sir, we are in constant communications with the 
Russians in this partnership. The Administrator met with Mr. 
Perminov just last week while we were over there for the 
Expedition 8 landing, and we discussed a number of issues, all 
having to do with the final configuration of International 
Space Station. A number of those are intended to be readdressed 
when we have the heads-of-agency meeting with the other 
partners, and that is planned for the end of July over at 
Noordwijk, Holland.
    Senator Brownback. But we have not officially asked the 
Russians, ``Could you finish ISS? Do you have the capacity? And 
what would be the price of doing that?''
    Mr. Readdy. Just to be clear, the Russians have asked us to 
launch some of their elements, and we know what the Russians' 
launch capacity is with their Proton launch vehicle. Right now, 
the same repackaging would be required for their elements; they 
do not have robotic capability.
    The unique things that the Shuttle provides have to do with 
the crew and robotic interface, the ability for the crewmen to 
actually pick up the modules and install them on the 
International Space Station. That is something that does not 
happen--it is not available in Russia, it is not available 
anywhere else in the world at this point.
    It would have to be developed, at tremendous expense, and 
it would also take time. So we think that the nearest-term, 
quickest way to complete assembly of the International Space 
Station so that we can get on with the exploration agenda and 
learn those lessons that we need to, is to get the Shuttle back 
to flying again, in compliance with the Columbia Accident 
Investigation Board's report.
    Senator Brownback. I don't doubt that what you're saying is 
the quickest way to doing this. Nevertheless, I'm also curious 
about the safest and the least expensive to us, and I want to 
make sure we're inquiring about these other options. Because 
maybe it does extend the timeline out to completing ISS, but is 
there; the Shuttle's a very expensive program. We're 
committing, annually, in excess of somewhere between four to 
five billion dollars to the Shuttle program.
    Mr. Readdy. Yes, sir.
    Senator Brownback. We want to go to the Moon and Mars----
    Mr. Readdy. We do.
    Senator Brownback.--on human spaceflight. This is a huge 
stream of funds, and I want to make sure we've inquired of the 
Russians, the private sector, the European space community, and 
others about ``Could you finish this? What would you do? How 
would you bid the proposal to do this?'' so that we can see, as 
we're making these decisions now, that are going to determine 
the investment of $50 billion over the next 10 years, or 
whatever the case might be, that we're going the right route to 
finish this up.
    Mr. Readdy. Yes, sir.
    Senator Brownback.I'm not convinced that NASA has done 
that.
    Mr. Readdy. Well, sir, we will assess all the other 
capabilities and invite other people to make offerings with the 
alternative access to space in 2005 that we have planned. We 
have a budget line item that's $140 million. We will be looking 
for other opportunities to offload the Space Shuttle to the 
things that are not uniquely done--that require crew, that 
require robotic capability. And we will do that, sir.
    Senator Brownback. Does the United States have the option 
in the next few years for heavy lift from other areas? Lockheed 
have a heavy-lift capacity coming online in its Atlas V, that 
they're going to be testing in a year, is that correct?
    Mr. Readdy. Atlas V is flying. I think it's flown three 
times successfully, thus far, in a medium-lift capability. I 
think the Lockheed company will testify, on the second panel, 
as to what their plans are for the way ahead.
    The only heavy-lift vehicle right now, besides the Titan 
IV, that exists, and is in service of the national defense 
right now for two remaining launches, is the Delta IV, which is 
planned for this fall.
    Senator Brownback. But Lockheed will have this online in a 
year or so? Additional heavy lift?
    Mr. Readdy.I'd like Lockheed to take the question, sir.
    Senator Brownback. All right.
    Mr. Readdy. I'm not familiar.
    Senator Brownback. And what's the weight of the largest 
station element left to launch? Do you know that?
    Mr. Readdy. I'll take that as a question, but a Shuttle's 
capacity to a Space Station orbit was 36,000 pounds. So that 
pretty much capped what each and every one of the launch 
packages had to be. But we'll get you the details of each and 
every one of the launch packages, so that you know what the 
number is, sir.
    [John C. Karas of Lockheed Martin replied:]

    Atlas V has many versions. The most powerful ``medium/
intermediate'' class is the 500 series. (Even though this vehicle is 
classified as an intermediate, it has ``heavy'' lift capability. It has 
a -16 foot diameter and -55 foot long payload fairing (approximate 
shuttle cargo bay size equivalent) and can fly with 1 to 5 Solid Rocket 
Motors (SRM) strap-ons.
    This vehicle version first flew on 7/12/03, and was 100 percent 
successful. This particular mission flew with 2 solids and has an 
equivalent of 28,700 lbs directly to ISS. This exact vehicle will fly a 
second time in Dec '04, with a commercial mission. This vehicle 
configuration, with 5 SRMs can lift 39,000 lbs to ISS. As a matter of 
fact, NASA ``expendable LV and carriers directorate'' has already 
bought this vehicle to fly the Pluto new horizons mission in Jan '06.
    The other Atlas V we have is our ``heavy'' lift, or triple body. 
This vehicle has not yet flown, but is >95 percent common to our 500 
series (identical Atlas liquid booster, Centaur upper stage, and 5.4m 
payload fairing). This vehicle could be ready to fly within 3 years of 
a request from any Government customer. We substitute SRMs for 
identical liquid boosters with unique attach hardware. This vehicle has 
57,600 lb capability directly to ISS. These vehicles can lift -5-10 
percent more if flown to lower ISS phasing orbits, where prox ops 
stages like ATV/HTV would operate.
    Even though these vehicles have good lift and volume capability to 
ISS, there are still several items that have to be added and analyzed 
before they can assist in ISS assembly or servicing. These include: 
rendezvous and docking capability; STS equivalent payload attachments 
and environmental affects on existing ISS hardware; and impacts to 
planned human EVA and robotic arm assembly/servicing that would be 
different without an orbiter. These responses were jointly coordinated 
between Lockheed Martin and Associate Administrator, Bill Readdy before 
we both testified to Senator Brownback's appropriations subcommittee on 
May 5, 2004.
    Lockheed Martin performed this type of payload conversion when DOD 
missions were taken off Shuttle and flown on Titans after Challenger, 
at a significant cost. In the case of the STS/ISS manifest, there may 
be some elements that are easier than others, but this detailed 
analysis has not been done.
    Follow-Up Question: How much were these significant costs in 
converting the DOD payloads off the Shuttle and putting them on Titan 
after Challenger?
Lockheed Martin Response:
    Significant costs were spent on each individual payload 
transitioned off Shuttle. Costs were in the hundreds of millions of 
dollars each on the payload side and on the launch vehicle side for 
analysis, modification and verification. This was tailored for and 
repeated for each classified and DOD payload. Less complex spacecraft, 
that had more flexible designs and were less integrated with the 
Shuttle, were easier to convert and cost less.
    Therefore, even if the ELVs described had the necessary lift 
capability and developed the other required functions, complex ISS 
assembly missions still do not appear feasible to be flown on ELVs due 
to cost, schedule and risk factors. However, science and logistics type 
mission elements (within the 30 Shuttle mission manifest) appear 
feasible and should be studied further.

    Senator Brownback. I want to make sure that we're looking 
at this on an apples-to-apples basis, that if we've got so much 
weight that we need to get up to the Station, are there other 
alternatives that are coming on-stream that may not be owned by 
NASA--it may be by someplace else--can we do that, and at what 
cost?
    Mr. Readdy. Absolutely. Yes, sir.
    Senator Brownback. Are we getting that there? And that's 
why I'm trying to determine, you know, what's the weight and 
the capacity, what's the ability of others to be able to do. 
Now, there's a--being informed--didn't we take large payloads 
off the Shuttle in the 1980s, and start launching those on 
expendables? Didn't we, when we were----
    Mr. Readdy. NASA has always used a mixed-fleet approach for 
our scientific payloads. We've launched a number of scientific 
payloads and observatories and Department of Defense satellites 
on the Space Shuttle. We've also, of course, launched those on 
expendable launch vehicles, which we acquire. NASA has had a 
policy of acquiring those services from commercial sources, and 
continues this day. The Spirit and Opportunity that were just 
launched were commercially acquired. The Aura launch that is 
going to occur from Vandenberg next month is commercially 
acquired; that is a consistent pattern. We use a broad spectrum 
of launch vehicles, from Pegasus, at the low end, all the way 
up to, right now, what will be the Delta IV and the Atlas V 
launch-class vehicles.
    Senator Brownback. OK. You will be, then, inquiring 
specifically of the Russians and----
    Mr. Readdy. Yes, sir. We'll----
    Senator Brownback.--others about----
    Mr. Readdy.--we'll inquire from the Russians, the 
Europeans, and all our partners, as well as the private sector.
    Senator Brownback. Because before we move forward in the 
appropriation process this year, I would want that question 
asked and answered about what these other options are and at 
what price tag. And I realize these are big questions that take 
time to process, particularly when you're going to other 
groups, whether it's the Russians, the European Space Agency, 
or the private sector, you're going to need time to process the 
question that you put in front of them. But if we're investing 
this scale of money, if we're going back to the Shuttle that I 
continue to have questions about--this has been a great 
vehicle; it's done a lot of good. How much is it going to cost 
us to be able to get it flying again? And I don't know if you 
have a figure yet available on that----
    Mr. Readdy. No, sir, we don't.
    Senator Brownback.--of what it's going to cost to get the 
Shuttle back into space, back flying. Do we know that figure 
yet?
    Mr. Readdy. We could give you our 2005 budget submission, 
sir, and we're living within that. And we think that, 
currently, March to April next year is achievable. We're making 
steady progress toward that.
    Senator Brownback. That you will get it back into flight 
March or April next year?
    Mr. Readdy. Yes, sir. But we're being driven by the 
technical milestones along the way--this is not a schedule-
driven exercise. You know, although there are launch windows 
that are driven by having to have a daylight launch, having to 
have the tank lit when we turn it loose when we get on-orbit, 
having to do inspection, and those kinds of things drive some 
very narrow windows for us to be able to launch. We'll move 
from one window to the next window as we solve the technical 
problems, but right now, the technical problems we have in 
front of us, we think, are solvable, and we're on track for a 
March to April window for next year.
    Senator Brownback. Do you think you're going to be able to 
stay within budget that you've budgeted for getting the Shuttle 
back in flight----
    Mr. Readdy. Yes, sir.
    Senator Brownback.--by March or April of next year? And 
you----
    Mr. Readdy. Yes, sir.
    Senator Brownback.--you don't see any glitches--none have 
presented themselves yet--to being able to do that within your 
current appropriation?
    Mr. Readdy. Within our current appropriation, no, sir. We 
don't see any issue at this point. But as time goes on, we're 
going to identify whatever technical issues arise, because in 
addition to the findings and recommendations of Columbia 
Accident Investigation Board, we have also raised the bar on 
ourselves. And a number of the things that we have found, like 
the rudder speed brake actuator corrosion, were things that 
NASA found. So we have raised the bar, in terms of our 
standard.
    We've looked at this with a new lens, the space exploration 
division lens, such that we limit the Space Shuttle's life, not 
to 2020, but to just those missions that are essential for 
completing the International Space Station, those missions that 
require the human, robotic, rendezvous, docking, those kinds of 
things here in the near term to complete the International 
Space Station.
    So with that in mind, the re-certification that's going on 
right now for return to flight, has got a window that extends 
through International Space Station assembly complete.
    Senator Brownback. Good. I agree with you on doing this, 
not by a timeline, but on milestones; that you hit your 
milestones, rather than by a certain date. We don't want the 
Shuttle flying again if there are any safety questions that 
there remain about it at all.
    Senator Nelson?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Thank you, Mr. Chairman.
    Mr. Chairman, as you and I have discussed, both publicly 
and privately, the question, to me, is not whether or not we 
continue flying the Space Shuttle; the question is, how long do 
we continue flying the Space Shuttle, not only to get the Space 
Station completed, but long enough so that we do not have a 
down period between the end of the Space Shuttle and the 
beginning of flying of the crew exploration vehicle. That 
hiatus, under the time schedule laid out by NASA and the White 
House, could be as long as 4 years and, given the propensity 
for slowness of development of new, complicated, sophisticated 
systems, if it slips like the Space Shuttle did, which was 
supposed to fly in 1978 and did not fly until 1981, could be 
upwards of 7 years. And what I fear, from a policy standpoint, 
is that if we stop flying the Space Shuttle, and it's another 7 
years before we have our own American vehicle of access to 
space by humans, that that puts us in the unenviable position 
of relying on Russian rockets. With the changes in 
international politics, with the changes that we've already 
seen as a result of September 11, how can we predict the 
vagaries of the Russian foreign policy projected now up until 
the year 2017? And I'm not sure that this country would want to 
rely just on Russian rockets, even if we flew the Space Shuttle 
until 2010.
    But regardless of what I have just said--and I've said it 
many times, till I'm blue in the face--unless we can get the 
alarm bell sounded, get the sufficient will marshaled, to have 
the Space Shuttle flying safely to complete its mission, as 
outlined by NASA here, and to speed up the process of research 
and development and testing of a new vehicle, the United States 
of America is going to be put exactly in that position, with a 
hiatus of not being able to fly. That is what I think is going 
to threaten the interests of the United States in having 
assured access to space.
    Now, take for example--you asked some very good questions 
about the ELVs. I came here from a markup in the Department of 
Defense authorization bill in our Senate Armed Services 
Committee. One of the issues in front of that Committee, which 
I think we're going to take care of, is that despite all the 
problems that Boeing has had with the ELV contracts, the 
resignation of top Boeing officials, and the penalties that 
Secretary Peter Teets has put upon Boeing, and so forth, there 
are plenty of us that, despite all of that, feel very strongly 
that you have to have two lines of ELVs, the Lockheed line, 
which, as Mr. Readdy said, is the new Atlas V, and then the 
Boeing line, which is the Delta IV. Why? Because if one of 
those went down, in this case, we wouldn't have assured access 
to space from unmanned vehicles. So that's an issue that you 
will confront later on, as we get on down. I think we're coming 
out of the Armed Services Committee supporting the position of 
two robust lines of EELVs. That's the bigger-lift ELVs of the 
future. Of course, the Atlas is already flying.
    But then to say, if we've got that robust line, that you 
can suddenly take all of these components that have been 
designed and now built--and a lot of them are stored down at 
the Cape, ready for launch--and suddenly reconfigure them to 
put on the top of an ELV that is not man-rated, we're talking 
about a considerable bit of time, and a considerable bit of 
effort, and a considerable bit of cost.
    And so I would submit to you that as we explore the policy 
questions, that, at some point in the future, I would ask you, 
as the Chairman of the Committee, for let's to focus--once we 
get through this policy question which you've raised, which is 
``Shuttle or no?''--and if that, as I hope, and I think it will 
be answered in the affirmative, yes to Shuttle, then the 
question is, ``How long for Shuttle?'' for the protection of 
the interest of access to space?
    Since I've been in the Armed Services focus, I haven't 
heard all the things, but I assume the two witnesses have gone 
into the specifics on all the details of loads and design, and 
so forth and so on, about the reason for completing the Space 
Station. And I think, you know, the Space Shuttle is--it's a 
vehicle of risk. There's no doubt about it. You know, it was 
billed this last time as, like, one in 500. We now know that 
the catastrophic risk factor is two in 113. And yet mistakes 
were made that shouldn't have been made. And with the Gehman 
Commission report being implemented, it is, in my opinion, that 
we're going to be able to fly it as safe as possible, albeit 
still an element of risk. And any time that you're going to and 
from orbit, you're going to have some considerable risk.
    And so I thank you for raising these issues. And if there's 
anything on the technical things that haven't raised, they need 
to be raised for the record here. And I wish you all would 
raise those.
    Thank you.
    Senator Brownback. Thank you, Senator Nelson. I appreciate 
your thought, and I always appreciate your contributions here.
    Of course, we're dependent on the Russians right now, so, I 
mean, those things do happen, and they're going to continue to 
happen.
    Senator Nelson. And may I respond to that? Fortunately, we 
have the backup system. But that's with the Soyuz. And all 
Soyuz can do is carry three people, and not hardly any 
additional cargo. And then when Soyuz--or when the Progress 
comes up with cargo, it's carrying a very limited amount 
because of the size of that particular vehicle. To assemble the 
Space Station, you've got these huge components that are 
already built that are on the ground that have got to be 
launched. And so, for example, if you went just with the 
Russians, we can't put any more people up there on the Space 
Station than three, because we've got to have the capability, 
in case of an emergency, of getting the crew down. To utilize 
everything that we have built--not that we've completely 
assembled, but that we have built and hope to assemble--we need 
a lot more than three people on that Space Station.
    Senator Brownback. And that's what we're trying to assess, 
whether or not we have options in other places, and what price 
those would be.
    Senator Breaux?

               STATEMENT OF HON. JOHN B. BREAUX, 
                  U.S. SENATOR FROM LOUISIANA

    Senator Breaux. Are we in the question stage yet, or are we 
just chatting?
    [Laughter.]
    Senator Brownback. I guess we're just chatting. No, we're 
in the question--they're in the question phase, and we've got 
another panel after this group.
    Senator Breaux. OK, well----
    Senator Brownback. If you want to hold for that or you can 
ask questions of these gentlemen.
    Senator Breaux. Well, thank you very much. I apologize, as 
we've all been voting and everything else.
    And I share a great deal of the sentiment of the Senator 
from Florida with regard to the Shuttle. I mean, we've got to 
deal in reality here. I mean, it's nice to talk about future 
methods of getting into space--outer space, and taking care of 
the needs in future exploration, but in the short term and in 
the foreseeable future, we're going to be dealing with the 
Shuttle, and--at least I think so--and I would just hope that 
we can do everything to get it back on track as soon as we 
possibly can.
    And I happen to have seen Sean O'Keefe in the hall, and we 
asked him a few questions before I came here, at lunchtime. And 
I was just wondering, can you give me, maybe, Mr. Readdy, an 
update on where we are down at Michoud, in New Orleans, with 
regard to some of the work that we're looking at after the 
Shuttle. I mean, I think we're doing some work down there on an 
unmanned--the possibility of moving to an unmanned type of 
vehicle to provide the carriage of hardware to Space Station 
and into outer space. Can you give me an update both on where 
we are with the Shuttle, and, second, where we are with the 
work that's being done at Michoud with regard to the unmanned 
vehicle?
    Mr. Readdy. Yes, sir. Well, first and foremost, we have to 
fix the insulation on the tank so that it doesn't come off. We 
have to make sure that we have ways to apply that insulation 
such that there is quality control, such that it will not come 
off.
    Senator Breaux. You're saying we have to do it, and we all 
agree with that. The question is, Are we doing it?
    Mr. Readdy. We are doing it, sir. And we conducted a review 
here just in the last couple of weeks. We're making great 
progress not only on application of the thermal insulation, but 
also doing non-destructive tests and evaluation of that to 
assure ourselves that we've done that.
    We've also taken a look, through some very, very 
sophisticated computational fluid dynamics. This is like a wind 
tunnel that has no physical phenomena; it is all modeled in 
super-computers--and this allows us to take a model of the 
tank, and then see where little pieces of debris hypothetically 
could flow as the vehicle accelerates during ascent through the 
atmosphere. In addition, we have decided to peel back further 
around the side of the tank and institute new measures of 
applying the foam, so that none of that foam can transport 
itself to someplace where it could do damage to the orbiter.
    Senator Breaux. What about the unmanned rocket that they're 
doing some work on down there?
    Mr. Readdy. We have a number of trade studies that are 
underway to see what the way of the future is. Some of them 
include taking the expendable launch vehicles that we currently 
have in the inventory, and that are planned for future growth, 
into heavy-lift capacities to see how we could grow them even 
further. Some of the other trades include using Space Shuttle 
hardware, and being able to use that for an ultra-heavy lift 
capability. So those are all in the trade space that Admiral 
Steidle and his people are working on.
    Senator Breaux. Can you give me an update on the work of 
the Kistler operation down there? What are they doing?
    Mr. Readdy. The Kistler operation--we have thrown this wide 
open to a variety of proposals--not only commercial 
suggestions, but also in the private sector--and we had a 
competitive competition here; there were four proposals, which 
collapsed down to a single one. We went through the procedures 
and our procurement regulations and policies, and issued a 
justification for other than full and open competition because 
there was a single provider. I have to tell you that, at this 
moment, that procurement is under protest. The GAO is reviewing 
it, and I really can't comment much more on that matter at this 
point, sir.
    Senator Breaux. OK. Can you give us a time-frame on it, 
then, maybe about the----
    Mr. Readdy. We expect that this summer and we'll abide by 
the recommendations of the GAO.
    Senator Breaux. OK. Thank you.
    [The prepared statement of Senator Breaux follows:]

 Prepared Statement of Hon. John B. Breaux, U.S. Senator from Louisiana
    There are lots of things we could talk about today: the timetable 
and justification of the President's Vision, what kinds of new 
technologies and vehicles we'll need to go to the Moon, the health of 
the U.S. Space Industry, the desperate need this Nation has to renew 
our launch systems and capabilities. That's what we should discuss 
today. Whether the Congress accepts the President's Vision or not, the 
health of the U.S. Space Industry is certainly an important and timely 
topic.
    But if we're going to discuss doing away with the Shuttle--now, 
immediately--that changes the topic of today's discussion.
    But that's a big step to assume we're going to take when we don't 
have any replacements for our current fleet of U.S. Space Shuttles and 
no means of getting to the next generation of crewed vehicles.
    I personally can't foresee how we can say that we are renewing the 
U.S. Space Program if we also propose to stop everything we're doing, 
for a very long time, while we reengineer NASA from bottom to top. 
That's one way to renew the U.S. Space Program, but you'd be destroying 
it first.
    That's just the wrong idea, it seems to me, and takes us further 
into a hole instead of helping us find our way out of it. We may not 
all like where the space program has taken us, but we're here and 
there's no easy answer to turning it around.
    While it's true that if we were to start running down the path of 
shutting down the Shuttle and further limiting our commitment to the 
International Space Station, a number of issues are resolved. We 
wouldn't have trouble finding money to go back to the Moon. We could 
continue NASA science and aeronautics programs without interruption. 
And we be facing a future gap when we're flying U.S. astronauts aboard 
Russian space vehicles--we'd just be extending the gap we're in today.
    Those seem like easy conclusions to come to. But while it may feel 
good to come to a much easier answer, I don't think it's the right 
answer. The Congress should not take any action that further 
jeapordizes the reputation and prestige of the United States in how it 
conducts its Space Program and how it honors its commitments to the 
International Community.
    I think we need to come to agreement on what we're going to do, get 
our International Partners more involved in the discussion, and find 
out from industry and other U.S. space participants what can be done 
here. The President's Vision, as well intended as it might have been, 
hasn't stopped the discussion nor moved the country forward. I'm not 
sure what will move us forward from the current circumstance, short of 
spending a lot more on Space than this President and this Congress 
intends to spend. But we are in gridlock, and I hope we can find a way 
out of it.

    Senator Brownback. Thank you very much. I appreciate the 
panel, and I appreciate your input. I do want to hear back from 
you on some of the questions, and we'll pose those to you in 
writing, as well.
    Mr. Readdy. Yes, sir.
    Senator Brownback. The second panel, Mr. Mike Kahn, Vice 
President of Space Operations, ATK Thiokol; Dr. John Karas, 
Vice President of Space Exploration, Lockheed Martin; Mr. 
Robert Hickman, Director of Advanced Spacelift Force 
Application Directorate, the Aerospace Corporation; and Mr. 
Elon Musk, Chief Executive Officer, Space Exploration 
Technologies Group.
    Thank you, gentlemen, for joining us.
    [Pause.]
    Senator Brownback. Mr. Kahn, I believe we'll start with 
you. I'll need to vacate in about 30 minutes, so we're going to 
run the clock here at 5 minutes for each of you, if that would 
be acceptable. Mr. Kahn, we'll start with you. And if we could 
hear your testimony. Your full presentation will be put into 
the record, so you're free to summarize and make your major 
points that way.
    Mr. Kahn?

 STATEMENT OF MICHAEL KAHN, VICE PRESIDENT, SPACE OPERATIONS, 
                        ATK THIOKOL INC.

    Mr. Kahn. Mr. Chairman and Members of the Committee, thank 
you for the invitation to appear before you and discuss future 
launch options for the Nation's human space program.
    ATK applauds the President for articulating his vision for 
the Nation's exploration program, and fully supports its 
implementation. ATK is proud of its participation in the Space 
Shuttle program, and looks forward to our continued involvement 
in human and robotic missions.
    Senator Brownback. Could you get that microphone a little 
closer to you, would you, please?
    Mr. Kahn. Thank you.
    Senator Brownback. Thanks.
    Mr. Kahn. In my career, I've had the privilege to 
participate in many NASA programs, and I have experienced 
firsthand the excitement that comes with technical achievements 
and mission success. This success is what fuels our 
imagination, motivates us to advance technology, and gives us 
the confidence to meet future challenges.
    There are three points I would like to cover on why the 
Space Shuttle system is so vital to continued human access to 
space, and how derivatives of this system can be the key 
enabler to achieve the objective of the space exploration 
vision.
    The first step to achieve the space exploration vision is 
to continue the U.S. presence in space by returning the Shuttle 
to flight and completing construction of the International 
Space Station. We recognize the need to finish the Station, 
allowing space science to continue. The Shuttle is critical to 
completing the Station assembly, and we look forward to the 
Shuttle returning to flight as soon as it is safe to so do.
    Second, we recognize the importance of the U.S. space 
policy that supports a mixed fleet of vehicles. Following this 
policy will maintain the integrity of the industrial base, and 
assure access to space. The unique capabilities of the existing 
fleet of Shuttle, EELVs, and commercial launch vehicles has 
served us well in the past, and may offer advantages where they 
can best serve exploration safely and affordably. The focus and 
resources for space exploration should be applied to building 
exploration capability and hardware that will be needed in 
order to travel to and function on the Moon and Mars, getting 
there and back, going beyond; not spent on something that can 
already be done, getting cargo and humans to low-Earth orbit.
    Which really brings me to my third and primary point. We 
recognize there are numerous studies to put exploration 
payloads in orbit and assure they are affordable and 
sustainable. We are working with our industry partners to 
provide options that utilize the unique capabilities of a 
Shuttle infrastructure that can offer tremendous advantages.
    By replacing the orbiter with a cargo-carrying module, and 
using select components of the Shuttle propulsion systems, a 
wide spectrum of capabilities that are sustainable and 
affordable can be offered--multiple missions, common hardware--
most of which are already in place and flight-proven.
    For heavy lift, by attaching a cargo carrier to the 
external tank and using some of the existing capabilities, like 
the booster's engines, launch pad, critical skills, we can have 
a heavy-launch payload, 150,000 pounds to orbit, which is three 
times the current capability. Since everything except the cargo 
carrier is already in operation, the cost to develop and fly 
the system is substantially reduced. In fact, this heavy-lift 
system could even start flying before the Shuttle program ends, 
sharing common hardware systems and people, which would make it 
even more cost effective.
    In later years, if payload requirements grow and 
advantageous spiral development approach does exist to meet 
future needs, the flexibility is in place to use longer 
boosters, like the 5-segment motor tested last October, or a 
longer tank, which could put almost 200,000 pounds to orbit, or 
even an in-line configuration that could approach 225,000 
pounds.
    On a smaller scale, the crew exploration vehicle program 
plan shows demonstrator flights as early as 2008, with unmanned 
flights by 2011. And since this vehicle only weighs 35,000 to 
40,000 pounds, heavy-lift configuration may not be required.
    But in keeping with the approach of maximizing use of 
common infrastructure, common people, so costs and risks can be 
minimized, and safety and reliability maximized, a Shuttle-
derived solution could also be considered. A human-rated, 
flight-proven CEV launch system can be available by simply 
utilizing a single booster with a liquid-engine second-stage. 
This configuration would use the same infrastructure--again, 
launch pad, people--as the heavy-lift system. Additionally, if 
there are 35,000 or 40,000 pounds of payload instead of the 
CEV, you could use the same system, further improving cost 
effectiveness.
    By leveraging what has been invested in over the past 20 
years in people, systems, production processing facilities, and 
the knowledge and experience gained on these human-rated 
elements, an exploration transportation system can be 
structured to minimize risk and cost while maximizing safety 
and reliability. Strong consideration should be given to an 
exploration transportation system that is derived from the 
experience-base and maximizes use of demonstrated common 
hardware. And by replacing the orbiter with a cargo carrier, 
operating costs can be reduced.
    We recognize that EELV and commercial options are being 
reviewed, and know they can play a role; but for heavy lift and 
human lift, the demonstrated reliability and use of existing 
derived elements offer a low-risk and cost-effective approach.
    The Shuttle program embodies a significant national 
resource of people--engineers, technicians, leaders--hardware 
facilities, and tooling. The program has benefited from the 
growing and learning that comes from human spaceflight. If this 
knowledge capability can be utilized, the drive for science and 
exploration can proceed with confidence, and minimize the cost 
and schedule impacts with a new system.
    So, in summary, the Shuttle program not only plays a vital 
role in completing the Station and starting our progress toward 
exploration, but elements of this program may also serve as the 
building blocks for the exploration transportation system of 
tomorrow. The benefits of using these demonstrated, well-
understood elements with common infrastructure across different 
exploration missions will give the program the foundation and 
confidence to meet the cost and schedule targets laid out by 
the President. In fact, the benefits to safety should not go 
without notice, either; not just because these systems were 
designed and maintained over the years to be man-rated, but the 
workforce in place today, supporting Space Shuttle, knowing 
their efforts will evolve, versus end, will be a tremendous 
motivation and source of security that will help enhance our 
focus on safety. Investments in the existing infrastructure 
will also have a better long-term utilization.
    A propulsion system derived from Shuttle will allow maximum 
attention and resources to be applied to the challenging 
elements of exploration: living on the Moon, going to Mars, and 
things that have not been done. The elements of this propulsion 
system are already in operation, demonstrated, and fully 
capable to meet the safety, cost, and scheduled growth needs of 
tomorrow.
    Thank you for the opportunity to share my thoughts with 
you. I'll be pleased to respond to your questions.
    [The prepared statement of Mr. Kahn follows:]

  Prepared Statement of Michael Kahn, Vice President, Space Programs, 
                            ATK Thiokol Inc.
    Mr. Chairman and members of the Committee, thank you for the 
invitation to appear before you to discuss future launch options for 
the Nation's human space flight program. ATK applauds the President for 
articulating a vision for the Nation's space exploration program and 
fully supports its implementation. ATK is proud of its participation in 
the Space Shuttle program and looks forward to our continued 
involvement in human and robotic missions.
    In my career I have had the privilege to participate in many NASA 
programs and have experienced first hand the excitement that comes with 
technical achievements and mission success. This success is what fuels 
our imagination, motivates us to advance technology and gives us 
confidence to meet future challenges.
    There are three points I would like to cover on why the Space 
Shuttle system is vital to continued U.S. human access to space and why 
derivatives of this system can be the key enabler to achieve the 
objectives of the space exploration vision.
    The first step to achieve the space exploration vision is to 
continue the U.S. presence in space by returning the Shuttle to flight 
and completing construction of the International Space Station (ISS). 
We recognize the need to finish the ISS, allowing space science to 
continue and enabling future human space science and exploration. The 
Space Shuttle is critical in completing the ISS assembly, and we look 
forward to returning the Shuttle to flight as soon as it is safe to do 
so.
    Second, we recognize the importance of U.S. space policy that 
supports a mixed fleet of launch vehicles. Following this policy will 
maintain the integrity of the industrial base and assure access to 
space. The unique capabilities of the existing fleet of Shuttle, EELV's 
and commercial launch vehicles have served us well in the past, and may 
offer advantages where they can best serve exploration safely and 
affordably. The focus and the resources for space exploration should be 
applied to building exploration capability and hardware that will be 
needed in order to travel to and function on the Moon and Mars, getting 
there and back, and going beyond, not spent on something that already 
can be done--getting cargo and humans to low-Earth orbit. Which brings 
me to my third and primary point.
    We recognize there are numerous studies on how to put exploration 
payloads (CEV or heavy) into orbit in an affordable and sustainable 
manner. We are working with our industry partners to provide options 
that utilize the unique capabilities of the Shuttle infrastructure. 
This can offer tremendous advantages. By replacing the orbiter with a 
cargo-carrying module and using components of the Shuttle propulsion 
system, a wide spectrum of capabilities that are sustainable and 
affordable can be offered; Multiple missions--common hardware. Most of 
which are already in place and flight proven.
    For heavy lift, by attaching a cargo carrier to the external tank 
and using some of the existing capabilities, such as boosters, engines, 
launch pad, skills, etc.--we can launch a heavy payload--150K lbs to 
orbit, which is three times the current capability. Since everything 
except the cargo carrier is already in operation, the cost to develop 
and fly this system is substantially reduced. In fact, this heavy lift 
system could even start flying before the Shuttle program ends--sharing 
common hardware, systems, and trained people. This would make it even 
more cost effective.
    In later years, if payload requirements grow, an advantageous 
spiral development approach exists to meet future needs. The 
flexibility is in place to use longer boosters like the 5-segment 
Shuttle motor tested last October, and a longer fuel tank to launch 
almost 200K lbs to orbit, or an in-line configuration that could 
approach 225K lbs.
    On a smaller scale--the crew exploration vehicle program plan shows 
demonstrator flights as early as 2008, and unmanned vehicle flights by 
2011. Since this vehicle will probably only weigh 35-40K lbs, the heavy 
lift configuration may not be required. In keeping with the approach of 
maximizing use of common hardware and proven infrastructure so costs 
and risks can be minimized, and safety and reliability maximized, a 
Shuttle-derived solution should also be considered.
    A human rated and flight proven CEV launch system can be available 
by simply utilizing a single booster combined with a liquid engine 
second stage. This configuration would use the same infrastructure, 
launch pad and people as the heavy lift transportation system. 
Additionally, if there is a 35-40K lb payload/cargo requirement instead 
of the CEV, the same system could be used--further improving overall 
cost effectiveness.
    By leveraging what has been invested over the past 20 years in 
people, systems, production and processing facilities, and also the 
knowledge and experience gained on these human rated elements an 
exploration transportation system can be structured that minimizes risk 
and cost, while maximizing safety and reliability. Strong consideration 
should be given to an exploration transportation system that is derived 
from this experience base, and maximizes use of demonstrated common 
hardware and infrastructure. And by replacing the orbiter with a cargo 
carrier or CEV, operating costs will be reduced. We recognize that EELV 
and commercial options are also being reviewed, and know they can play 
a role, but for heavy lift and human lift (CEV), the demonstrated 
reliability and use of existing Shuttle derived elements offer a low 
risk and cost effective approach.
    The Shuttle program embodies a significant national resource of 
people (engineers, technicians, and leaders), hardware, facilities and 
tooling. The program has benefited from the growing and learning that 
comes with human space flight experience. If this knowledge and 
capability can be utilized, the drive for science and exploration can 
proceed with confidence and minimize the cost and schedule impacts that 
come with developing new launch systems.
    In summary, the Shuttle program not only plays a vital role in 
completing the ISS and starting our progress toward exploration, but 
elements of the program may also serve as the building blocks for the 
exploration transportation system of tomorrow. The benefits of using 
these demonstrated, well understood elements, with common 
infrastructure across different exploration missions will give the 
program the foundation and confidence to meet the cost and schedule 
targets laid out by the President. In fact, the benefits to safety 
should not go without notice either--not just because these systems 
were designed and maintained over the years to be human-rated, but the 
workforce in place today supporting the Space Shuttle, knowing their 
efforts will evolve instead of end, will be a tremendous motivation and 
source of security that will only help to enhance the focus on safety. 
Investments in the existing infrastructure will also have better long-
term utilization.
    A propulsion system derived from the Shuttle will allow maximum 
attention and resources to be applied to the challenging elements of 
the exploration missions--living on the moon, going to Mars, and other 
things that have not been done. The elements of this propulsion system 
are already in operation, demonstrated, and fully capable to meet the 
safety, cost, schedule and growth needs of tomorrow.
    Thank you for the opportunity to share my thoughts with you, I will 
be pleased to respond to any questions that you may have.

    Senator Brownback. I appreciate those thoughts, Mr. Kahn.
    Dr. Karas?

  STATEMENT OF JOHN KARAS, VICE PRESIDENT, SPACE EXPLORATION, 
                        LOCKHEED MARTIN

    Dr. Karas. Yes, sir.
    Mr. Chairman, Members of the Subcommittee, distinguished 
panel members, thank you for the opportunity to appear before 
you to discuss U.S. launch-vehicle capabilities for meeting the 
vision of space exploration. We are truly excited about the 
journey the vision sets for our country, and I appreciate your 
leadership in moving this forward to realize this goal.
    Mr. Chairman, Lockheed Martin is dedicated to each step of 
the vision--first, helping NASA successfully return to flight. 
We are working with Associate Administrator Bill Readdy in 
delivering improved hardware that supports the Shuttle from 
several operating units within the corporation, and we are also 
applying CAIB findings not only to Shuttle and the external 
tank, as well as other products within Lockheed Martin. We're 
also working closely with Admiral Steidle and his team to help 
define space-exploration architectures, which will ultimately 
drive all the space transportation elements, and specifically 
the heavy-lift requirements, for the future.
    Lockheed Martin, in preparation for these studies, has 
several alternatives at work: one is being ELV-derived, one 
being Shuttle-derived, and clean-sheet vehicles. And everything 
that we're doing there is to trade those off as evenly as we 
can.
    My written testimony is primarily focused on ELV, as 
requested. However, I believe each of these solutions is 
technically capable of evolving to meet the space-exploration 
heavy-lift requirements. The answer will be driven by two 
things: affordability and sustainability, or the nonrecurring 
and development costs of these systems, and the total mission 
manifest. That will include smaller robotic and scientific 
missions, larger CEV missions, ISS missions, and, potentially, 
DOD missions as an overall aggregate manifest.
    Focusing now on ELVs, both the Atlas V and Delta IV ELVs--
vehicles, in general, are very well prepared to evolve or 
spiral from today's capability. In the case of Atlas, we have 
introduced eight different models over the last 12 years, each 
successful on their maiden flights, each adding performance. 
Today's fleet of Atlas Vs can provide between 20,000 pounds and 
60,000 pounds to low-Earth orbit. ELVs have not only increased 
in performance, but increased reliability and operability 
through new processes and new infrastructures. These 
infrastructures also have plenty of growth already built in. It 
is this proven, controlled-risk approach we've applied in the 
past that will apply to the future of the heavy-lift vehicle.
    Atlas ELV has formulated a phased growth plan consisting of 
manageable risk and performance increments to match the 
potential range of needs. Utilizing new booster propulsion and 
the new ground airborne avionics and structures, all developed 
on ELV, we could increase tank size or number of engines, just 
like we did in earlier progressions, to grow to about 160,000 
pounds to low-Earth orbit; we can do this in 25,000-pound 
increments. This range of vehicles also fit into the existing 
ELV operations and infrastructure as is today.
    These configurations also have the benefit that each 
element can reach back to service existing commercial, civil, 
and DOD markets. We can strap more of these large boosters 
together and achieve over 200,000 pounds to low-Earth orbit. 
However, these vehicles call for ELV infrastructure changes and 
improved, more modern upper-stage engines with more thrust and 
reliability. It seems, at the upper end of the spectrum, 
whether you're talking about EELV, Shuttle-derived, or clean-
sheet approaches, they all have similar performance-improvement 
needs and changes in their infrastructure.
    In general, I believe there is an adequate number of 
solutions in the heavy-lift performance range to choose from.
    As I mentioned before, the architectural requirements will 
define the mission model and the affordability level. These 
items will drive the answer to what's the correct heavy-lift, 
not so much the technology. Economics will dictate lower 
development costs with lower risk, minimizing overall 
infrastructure costs. And assuming super-heavy/flies-
infrequently systems, with elements that can reach back into 
rate synergies or reach forward into other in-space 
transportation vehicles, will fare better than others.
    Each option has pluses and minuses, and requires further 
study. So I recommend we don't really get ahead of ourselves 
yet, but work with Admiral Steidle and make sure we define 
requirements.
    In that vein, we look forward to working with NASA and our 
industry partners in defining requirements and refining these 
trades. Our goal is to attain a successful space transportation 
system, one that makes space exploration vision a reality.
    Thank you.
    [The prepared statement of Dr. Karas follows:]

 Prepared Statement of John Karas, Vice President, Space Exploration, 
                            Lockheed Martin
    Mr. Chairman and Members of the Subcommittee, I would like to thank 
you for this opportunity to appear before you to discuss U.S. launch 
capabilities for meeting the national vision for space exploration. We 
are truly excited about the journey that the vision sets for this 
country, and I appreciate your leadership in moving us forward to 
realize our vision.
Introduction
    I am reminded of what Robert Heinlein wrote, ``Once you get to 
earth orbit, you're halfway to anywhere in the solar system.'' As we 
were reminded by Challenger, getting to orbit is still risky; and as we 
were reminded by Columbia, coming home is still risky. It's the first 
and last 100 miles that are the hardest. As we move forward on this 
bold national vision for space exploration, we need to carefully learn 
and not repeat the lessons of almost 50 years of spaceflight. I would 
like to provide a few recommendations based on our experience and 
lessons learned.
    First, as specified in the vision, our priority is to return the 
Space Shuttle to flight so that we can complete the International Space 
Station and regain our momentum and yes, confidence for human space 
exploration. I was honored to lead the Lockheed Martin Independent 
Review Team looking into the Space Shuttle External Tank. Lockheed 
Martin is supporting return to flight with all the necessary Corporate 
resources. We all must continue to incorporate the lessons and 
recommendations in the Columbia Accident Investigation Board report, 
not only for the Space Shuttle return to flight, but in everything that 
we do. For example, we are currently applying every applicable idea and 
recommendation in the CAIB report to the Atlas EELV launch system to 
make it even more reliable and robust. In keeping with the CAIB report, 
Lockheed Martin is also investigating alternative concepts and methods 
to assemble and service the Space Station in an attempt to reduce loss 
of crew risk.
    Next, before we can adequately address the space transportation 
capabilities that will be needed for near-term or future space 
exploration, I have to stop and ask, ``What are the requirements?'' 
I've seen bold statements that we will need heavy lift approaching 50 
to 100 tons to low-Earth orbit, yet the Space Exploration Level 1 
requirements from NASA will not be available until September. Admiral 
Steidle and Code T are working diligently within NASA and with industry 
to establish these foundation requirements. I caution us not to get 
ahead of ourselves. How do we know whether existing launch vehicles 
will or will not satisfy our exploration needs for the next 20 years 
without understanding the exploration missions and requirements? We 
often like to jump to solutions, but it's not about heavy lift or 
developing new launch vehicles--it's not about the Nina, Pinta or Santa 
Maria (vessels to get there), it's about the affordability of the 
exploration mission.
    In the early 1960s, we did not have existing launch vehicles going 
to space. A portion of the Apollo funding went into converting ICBMs to 
be space launch vehicles or developing a new Saturn V launch vehicle. 
Today, we are fortunate to have new launch capabilities through the 
EELV program. We are working with NASA to look at all options, as shown 
in Exhibit #1, in a systematic trade study, and keeping our options 
open until we have definitive requirements that will drive selection 
criteria and downselect to an optimal solution. These options include 
utilizing the EELV, Space Shuttle-derived, hybrid options, or a new 
clean sheet approach. All options are viable until we can perform 
adequate analysis based on the exploration requirements. The majority 
of my testimony focuses on EELV-derived vehicles per your request.
Existing EELV Capabilities
    Another lesson that we can take from the 60s is that incremental, 
evolutionary development is critical. We did not get to the moon the 
first time by jumping directly to the Saturn V. We built, demonstrated, 
and learned on Mercury/Atlas to Gemini/Titan to Apollo/Saturn; it took 
us 68 unmanned launches and 20 human spaceflight launches before Neil 
Armstrong and Buzz Aldrin stepped onto the moon. We learned valuable 
lessons along the way at each incremental step, building capability and 
confidence for the next step. The Atlas V EELV today was built with 
that same model of evolutionary development from Atlas I, II, IIA, 
IIAS, III, to the family of Atlas V vehicles we have today, as depicted 
in Exhibit #2. Today, our Atlas V EELV covers a broad range of 
capabilities all of the way to approximately 65,000 lbs to low-Earth 
orbit, for government, commercial, and international customers at half 
the cost of just 10 years ago. At the same time, we have improved 
reliability through fault tolerance and parts count reductions and 
increased payload volume. In addition to vehicle improvements, we have 
drastically improved operations efficiency. We have created new 
infrastructure that doubles our flight rate, which is operated with 
reduced overhead cost, and increased responsiveness with demonstrated 
eight hours from vehicle on stand to launch.
    Another lesson from the 60s that is critical for this program to be 
affordable and sustainable is NASA and DOD synergy. An Air Force ICBM 
called the Atlas was converted to the launch vehicle for the Mercury 
program to send John Glenn into orbit. The Air Force's larger ICBM 
called the Titan II was converted to the launch vehicle for the Gemini 
Program. While an Atlas ICBM is different from the human-rated space 
launch vehicle used for Mercury, they are fundamentally the same 
technology, and common processes, and provide economies of scale and 
utilization of the industrial base that benefited both NASA, the DOD, 
and the entire nation. When we move away from NASA-DOD synergy, as was 
demonstrated with the Saturn V and the Space Shuttle, one agency has 
difficulty maintaining an affordable and sustainable program. We have 
the opportunity again with a brand new fleet of advanced technology 
EELV launch vehicles to capitalize on investments by the DOD, Lockheed 
Martin, and Boeing, to once again have that synergy for mutual benefit. 
We have already studied improvements for human rating the Atlas V that 
will no doubt provide higher reliability and service for DOD and 
commercial customers. This is not unlike the improvements that we 
implemented in developing the Titan III for the Air Force, based on 
lessons from human rating the Titan II for NASA.
    I also must mention a key lesson that we learned from Challenger: 
assured access to space. Access to space is no longer a luxury, but a 
necessity. This nation is dependent on our space assets. We need a 
robust system that has assured access in the event of a failure, so 
that we are not stranded without a launch capability for two years as 
we saw post-Challenger and now post-Columbia. Fortunately, the Atlas V 
and Delta IV EELV systems we have today are providing assured access to 
space with two very capable but independent systems.
Atlas Growth And Other Capabilities
    When larger lift capability is required for extensive moon or Mars 
missions after 2015, the Atlas V will be able to meet the exploration 
requirements. As shown in Exhibit #3, with incremental steps from the 
current Atlas heavy, we can improve performance up to greater than 
Saturn V class lift. The first step is to expand our upper stage 
capabilities with larger tanks and existing propulsion. Both the Atlas 
V and Delta IV EELVs can get you to orbit; however, requirements will 
dictate that we go beyond Earth orbit. We would benefit from new in-
space propulsion capabilities to efficiently break the bonds of Earth 
orbit. Unlike new booster engines that both Atlas and Delta have 
developed, more modern, larger upper stage thrust engines would enhance 
reliability and performance. We then can greatly improve our 
performance by just increasing the size of the booster fuel tanks and 
adding existing engines, not unlike when we developed the Redstone 
rocket, grew it to the Saturn I and, finally, the Saturn V rocket with 
common upper stage elements.
    These vehicles up through 75 metric tons are compatible with 
today's existing EELV infrastructure. Further enhancements could be 
realized through partial reusability of the boosters, which are the 
easiest to recover. When I say partial reusability, I am referring to 
reusing only the most expensive elements, such as the engines and 
avionics with 3-5 uses. These methods date back to Saturn in the `60s 
and Atlas conducted experiments in the late 80s/early 90s to validate 
these concepts. If these concepts are implemented, recurring cost of 
less than $2,000 per pound could be achieved. This approach also 
minimizes development cost and performance impacts versus a fully 
reusable system.
    As vehicle designs approach 100 metric tons or more, even larger 
stage elements become necessary, trending towards LO<INF>2</INF>/RP 
boosters with LO<INF>2</INF>/LH<INF>2 </INF>core or second stages. This 
trend might suggest mixed fleet or hybrid combinations of EELV and 
Shuttle-derived elements, taking the best from each. This is analogous 
of how we combined the best elements of the Titan and Atlas launch 
vehicles to create the Atlas V. Also, we need to consider other 
technologies being developed within DARPA, like the Falcon Program, and 
other NASA and Air Force propulsion programs to provide the best 
solution within the space transportation, heavy lift trade space.
HLV Trade Study Drivers
    Even though I have focused on the expendable launch vehicle 
capabilities, the methods and approaches described can be applied to 
Shuttle-derived or clean sheet solutions. Regardless of the solution, 
the key is not just meeting performance requirements but affordability 
and sustainability requirements as well. In order to meet those cost 
requirements, we must minimize the non-recurring costs while reducing 
and distributing overhead and infrastructure costs. Therefore, the 
larger-lift vehicle elements that fly infrequently must be synergistic 
with smaller higher-rate elements, such as CEV, ISS servicing, robotic 
exploration, and DOD missions. This common element approach is what 
enables the current EELV fleet to have cost effective, heavy class 
vehicles, unlike in the past where Titan, Atlas and Delta had 
independent hardware and infrastructures. Currently we have an 
abundance of credible solutions with existing technologies for heavy 
lift. After the exploration and overall space transportation 
requirements are defined, we can then complete the economic trade-offs.
    The national vision for Space Exploration calls for international 
cooperation. We support this vision and believe it is important to 
enhance the sustainability and affordability of the Space Exploration 
vision. We have already implemented this model of international 
cooperation, not only on the International Space Station, but in the 
development of the Atlas V with the use of a rocket engine technology 
from Russia, payload fairing from Switzerland, and structures from 
Spain. We also have other business partnerships with Russian, European 
and Japanese companies that look forward to bringing their technology 
for space exploration.
    In closing, our new expendable launch vehicles, Shuttle-derived, 
and clean sheet approaches can have the same or better capabilities by 
providing significantly more reliability than even their recent 
versions through continual improvements. However, no system will be 
perfect or invulnerable to failure. It would be negligent of us all to 
develop a launch system for space exploration that does not provide our 
astronauts a way out on a ``bad day.'' The Mercury, Gemini, and Apollo 
systems all had crew escape systems. It is imperative that we maximize 
crew safety through continual improvements of launch vehicle 
reliabilities, institute integrated vehicle health management to warn 
us if something is going wrong, and deploy crew escape systems that are 
robust enough to protect our brave explorers.
    Mr. Chairman, I would be happy to answer any questions you or 
Members of the Subcommittee may have. Thank you.
                                 ______
                                 
 Resume of John C. Karas, Vice President, Space Exploration, Lockheed 
                      Martin Space Systems Company
Joined Corporation in 1978
Appointed to Space Exploration position February 2004

    John Karas is Vice President of Space Exploration for Lockheed 
Martin Space Systems Company. In this position, he is responsible for 
coordinating the corporation's capabilities and assets for human and 
robotic space exploration. Previously, he served as Vice President, 
Business Development, and was responsible for strategic planning, 
advanced technology concepts, and new business acquisition efforts for 
strategic and defensive missiles, and commercial, civil, and classified 
space lines of business. Karas reports directly to Tom Marsh, Executive 
Vice President, Lockheed Martin Space Systems Company.
    Previously, Karas served as Vice President, Atlas and Advanced 
Space Transportation, for Lockheed Martin Space Systems. This 
responsibility included launch systems development and recurring 
operations for the Atlas program and advanced space transportation 
opportunities such as Orbital Space Plane and other manned, unmanned, 
reusable and expendable systems, including their respective business 
development, implementation and operations.
    Karas served as Vice President and Deputy of the EELV/Atlas V 
organization from March 1997 to December 2002 and was responsible for 
developing new launch vehicles such as the Atlas IIIA, IIIB and Atlas V 
family, and their launch facilities.
    Karas began his career with General Dynamics Space Systems Division 
in 1978 and joined Lockheed Martin in May 1994 when Lockheed Martin 
acquired the Space Systems Division. From 1995 to 1997, Karas served as 
program director for advanced Atlas launch vehicles, specifically the 
Atlas IIIA launch system. He was instrumental in the creation of the 
company's launch vehicle strategy, which included the evolution of the 
Atlas II, III and V family of launch vehicles.
    Karas was Director of the Advanced Space Systems and Technology 
department and Site Director of the company's operations in Huntsville, 
Alabama from 1991 to 1995. In this position, he was responsible for 
management of operations research, system predesign, technology 
development and new business funds for the entire division. Under his 
direction, the department focused on structures and propulsion 
technology. For example, new materials (aluminum-lithium and 
composites) and manufacturing technologies (near-net forming) were 
matured for cryogenic tanks. New cryogenic feedlines and Russian 
engines and subsystems such as the initiation and development of RD-
180, advanced Russian propellants and flange tests also were completed 
during propulsion technology development, all of which were 
successfully transitioned into production on the Atlas III, Atlas V and 
EELV programs. Karas was also responsible for Single Stage To Orbit and 
National Aerospace Plane cryogenic systems and contracted R&D.
    Karas served as Manager of Advanced Avionics Systems from 1986 to 
1989. This group was responsible for new technology demonstration; 
conceptual predesign; avionics system design; and system integration 
lab testing for airborne guidance, navigation, and control (GN&C) 
functions. These new technologies included developments such as 
adaptive GN&C, multiple fault-tolerant controls, a totally electric 
vehicle using electromechanical actuators and artificial intelligence 
applications. The Advanced Avionics Systems group also had the 
responsibility for the development of independent and contract research 
and development (IR&D and CR&D) and insertion of new cost savings and 
performance enhancement technologies into existing products. During his 
tenure in this position, Karas was designated ``Employee of the Year'' 
for the development leading to the upgrade of the Atlas avionics 
system.
    Prior to leading the advanced avionics department, Karas spent 
seven years working all levels of integration on the Shuttle-Centaur 
program. Karas led the integration of Centaur and associated airborne 
and ground support equipment with Shuttle Airborne, Ground Systems and 
Flight Operations. In this capacity, Karas became very familiar with 
reusable, manned systems and with operations at NASA's Johnson, Kennedy 
and Lewis Space Centers.
    His technical expertise includes system definition, propulsion & 
avionic technology development and insertion, and hardware/software 
integration. Karas also has developed redundancy management concepts 
for several flight-critical systems and their associated system 
demonstration and validation techniques. Karas has served on several 
national and international committees on these subjects.
    In 1987 Karas was named employee of the year for advanced avionics. 
Karas was one of five senior managers that received Aviation Week's 
2000 Laureate Award for Aeronautics/Propulsion for development and 
integration of the RD-180 Russian engine with Lockheed Martin's Atlas 
launch vehicle. He was also named Lockheed Martin Astronautics Manager 
of the Year for 2000. Karas and the Atlas team were awarded the 2002 
Lockheed Martin Space Systems Leadership Award for the on-cost and on-
schedule successful first launch of EELV/Atlas V. Most recently, Karas 
received the Houston Rotary Stellar award for Atlas V and launch site 
in March 2004.
    Karas received his bachelor's degree in Electrical Engineering from 
the Georgia Institute of Technology in 1978. While working toward his 
degree, Karas was a co-op student for four years where he worked for 
NASA at the Kennedy Space Center. Karas has taken advanced course work 
toward a master's degree in engineering and an MBA.



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                 ______
                             

    Senator Brownback. Thank you.
    Mr. Hickman?

   STATEMENT OF ROBERT A. HICKMAN, DIRECTOR, ADVANCED LAUNCH 
              CONCEPTS, THE AEROSPACE CORPORATION

    Mr. Hickman. Mr. Chairman, distinguished Committee Members, 
and staff, The Aerospace Corporation is a federally funded 
research and development corporation which supports the Air 
Force Space and Missile Center. For the past 44 years, we've 
helped the Air Force plan and develop launch systems.
    I'd like to discuss recent aerospace studies that have got 
launch-system concepts that could support national needs.
    While today's launch fleets are adequate to support current 
launch mission manifests, all sectors of the space community 
are seeking new transformational capabilities. The Air Force is 
planning tactical space missions to support warfighters in real 
time. These tactical payloads will weighs less than 10,000 
pounds, and require very responsive and affordable launch 
systems.
    From a civil perspective, the plan announced by the 
President to return to the Moon and eventually go to Mars is 
anticipated to need a very large launch vehicle with a lift 
capacity exceeding 100,000 pounds, and it would operate with a 
relatively low launch rate. To regain our competitive 
advantage, the United States commercial sector needs 
significantly lower launch costs in the 10,000- to 40,000-pound 
lift-capacity range.
    In terms of launch-vehicle options, the current expendable 
launch vehicle range in price from $5,000 to $10,000 per pound. 
Significant decreases in the cost of medium- and heavy-lift 
launch are not anticipated. However, the Air Force and DARPA 
are engaged in a program known as FALCON to reduce the cost of 
small launch vehicles.
    Reusable launch vehicles can potentially lower the cost by 
reusing flight hardware; but in the case of the Shuttle, that 
did not occur. Understanding the achievable operability of 
future reusable launch systems is crucial in determining their 
viability. Our detailed operability analysis indicates that, 
using current technologies, reusable launch vehicles can be 
developed which can be processed in 2 to 10 days. Even given 
this range of uncertainty and operability estimates, additional 
data is needed to determine if reusables have a clear cost 
advantage over expendable systems.
    On the other hand, hybrid vehicles, consisting of a 
combination of a reusable first stage and expendable upper 
stages, provides a lower-risk alternative to achieve responsive 
and affordable space lift. They could potentially reduce the 
current launch cost by a factor of three, and achieve a routine 
churn time of 2 to 4 days. The hybrid vehicle requires only 
about a third of the amount of disposable hardware as an 
expendable system, and less than half of the hardware of a 
fully reusable system.
    If you--in Figure 1 in the handout, it depicts the 
estimated manpower to process a hybrid, compared to the Space 
Shuttle, and the rationale to achieve a 26-hour churn time. 
Since a hybrid does not employ a reusable orbiter, it avoids 
the complexity and cost of a thermal protection system. 
Minimizing system complexity, eliminating toxic fluids, and 
incorporating modern long-life systems engines are a few of the 
potential enhancements to further reduce timelines and 
manpower. Many of these enhancements are also applicable to 
fully reusable systems.
    We consider a hybrid a relatively low-risk first step in an 
evolutionary development process that provides incremental 
enhancements and capability over time. Developing separate 
launch systems for the defense, commercial, and civil community 
will be very costly. Modular vehicle designs that minimize the 
number and types of stages that need to be developed are one 
way to reduce the cost to support national needs.
    The final figure is an example of a space-lift architecture 
capable of supporting a broad range of payloads. It's based on 
the derivatives of only two reusable vehicle elements. The 
first vehicle is a hybrid capable of launching 12,800 pounds to 
low-Earth orbit. If you combine this reusable stage with a 
larger reusable booster, the lift capacity increases to 25,000 
pounds. Combining three of the larger stages increases total 
lift capability to 87,000 pounds. Finally, combining two of 
these larger boosters with the EELV common core increases lift 
capacity to 160,000 pounds.
    In summary, the Aerospace study, in principle, indicates 
that a modular approach holds the promise of developing 
vehicles that could meet national needs. The reduced size of 
the engineering, logistics, and processing infrastructure, 
combined with the higher vehicle flight rate, will also 
minimize recurring cost.
    This testimony was intended to provide the Committee 
insight into one potential design option, and it's not intended 
to be a recommendation for the development of systems 
supporting NASA or national needs. A lot further detailed study 
launch requirements have been defined are necessary to make 
that recommendation.
    So I'd like to thank the Committee for the opportunity to 
describe some of The Aerospace Corporation advanced launch 
studies, and I stand ready to provide any further information 
or discussion the Committee may require.
    [The prepared statement of Mr. Hickman follows:]

  Prepared Statement of Robert A. Hickman, Director, Advanced Launch 
                  Concepts, The Aerospace Corporation
    Mr. Chairman, distinguished committee members and staff:

    I am pleased to have the opportunity to describe the studies 
conducted by The Aerospace Corporation as they relate to advanced 
launch system design. The Aerospace Corporation is a private, nonprofit 
corporation, headquartered in El Segundo, California. s its primary 
activity, Aerospace operates a Federally Funded Research and 
Development Center (FFRDC) sponsored by the Under Secretary of the Air 
Force, and managed by the Space and Missile Systems Center (SMC) in El 
Segundo, California. Our principal tasks are systems planning, systems 
engineering, integration, flight readiness verification, operations 
support and anomaly resolution for the DOD, Air Force, and National 
Security Space systems.
    For the past forty-four years Aerospace has helped the Air Force 
plan and develop launch systems. Recent studies performed by Aerospace 
have focused on advanced launch system concepts that could support the 
Defense Department, NASA, and the commercial sector. This includes 
involvement in joint studies where Aerospace worked closely with NASA 
and the Air Force to address launch system issues from a national 
perspective. The Advanced Space Lift Study began in 2002 and was the 
prelude to the Operationally Responsive Spacelift (ORS) Analysis of 
Alternatives (AoA). Aerospace performed the technical analysis for the 
ORS AoA that is intended to identify the acquisition strategy for 
future Department of Defense launch systems.
Desired System Capabilities
    Today's launch fleet routinely deploys sophisticated spacecraft for 
navigation, communication, meteorology, intelligence, surveillance, 
reconnaissance, and space exploration.
    Though impressive, today's launch fleet is not without limitations. 
Launch costs and preparation times limit space applications to a 
handful of high-value services. A revolution in new space applications 
is possible, but would require a new generation of launch systems to 
reduce cost and preparation times. The Department of Defense and NASA 
have expressed interest in such ``transformational'' capability; but 
before pursuing such a system, three major interrelated questions must 
be answered.
    First, what capabilities are envisioned for the system? The goals 
of the defense, civil, and commercial space sectors are different, and 
the degree to which common solutions can be developed will determine 
whether separate or joint programs are pursued. Second, what sort of 
system should be designed? The choice between an expendable and 
reusable system, for example, will depend on whether design techniques 
and manufacturing technologies can be improved enough to make reusable 
systems operable and affordable. Third, what development strategy 
should be employed? The combination of risk tolerance, available 
budget, and time-frame of need will dictate whether developers seek 
radical advancements through aggressive technology projects or accept a 
safer, more incremental approach.
Defense Perspective
    Defense launch systems are in the midst of a major transition. The 
heritage launch systems that served the Nation's needs for decades are 
now being retired and replaced by a new generation of launch vehicle 
families under the Air Force Evolved Expendable Launch Vehicle (EELV) 
program.
    These vehicles are adequate to support the current mission manifest 
of national security satellites; however, the Air Force has identified 
a need to launch tactical space missions that support war fighters in 
real time. These missions would allow global strike capability, rapid 
augmentation of satellite constellations, rapid replacement of 
compromised space assets, deployment of specialized space vehicles for 
combat support, and wartime protection of American space assets. The 
Air Force is clearly considering that future military engagements may 
require the launch of large numbers of payloads in just a few days. The 
majority of these payloads are anticipated to be less than 10,000 lbs.
    Prosecuting a war in this manner would be impossible without launch 
responsiveness. Through the Operationally Responsive Spacelift (ORS) 
Assessment of Alternatives, Aerospace is assisting the Air Force Space 
Command define its future launch system plans. At this point, the AoA 
is nearing completion.
Civil Perspective
    In the course of more than 20 years, the Space Shuttle has launched 
more than 2 million pounds of cargo and sent more than 300 people into 
space. After the start of operations, however, it became increasingly 
clear that the shuttle was difficult to operate, maintain, and upgrade. 
Also, the differing orbiter configurations made each flight preparation 
a painstaking ordeal.
    The Space Shuttle Columbia flew its 28th and final mission, 
launching on January 16, 2003, and breaking up 16 days later on its 
return to Earth. A new plan announced in early 2004 calls for a return 
to shuttle flights (until the International Space Station is completed) 
and development of a space vehicle capable of carrying a crew to the 
moon and beyond. Although no specific launch vehicle requirements have 
yet been defined, it is anticipated that a large launch vehicle will be 
needed with a lift capacity greater than 100,000 lb and with a 
relatively low launch rate.
Commercial Perspective
    The traditional commercial launch market is focused principally on 
lofting communications spacecraft into Earth orbit. A methodology 
developed at Aerospace to explore launch costs suggests that the low 
flight rate required to support traditional communications spacecraft 
is not large enough, by itself, to justify large economic investments 
needed to achieve dramatically lower launch costs. To regain their 
competitive advantage, the U.S. commercial sector needs significantly 
lower launch cost for 10,000 to 40,000 lb. payloads.
Expendable Vehicles
    Expendable launch vehicles could support responsive tactical space 
needs, just as ICBMs do, but the cost would be prohibitive. Current 
launch costs range from $5,000 to $10,000 per lb. of payload to low 
Earth orbit. The significant efforts of the EELV program have achieved 
moderate cost reductions, particularly for the heavy-lift vehicles, 
which use the same production line as the medium-lift versions. This 
commonality effectively provides the heavy-lift rocket with production 
rate advantages over the Titan IV and also permits the costs of 
engineering and logistics to be spread over a larger number of 
vehicles.
    EELV has invested heavily in the latest manufacturing techniques 
and processes. Still, further significant decreases in medium or heavy 
lift expendable launch vehicle cost are not anticipated. On the other 
hand, small launch vehicles currently cost substantially more per pound 
of payload than their larger counterparts. The FALCOM program is a 
joint effort between the Air Force and DARPA to determine if a 
significant reduction in the cost of small expendable launch vehicles 
can be achieved.
Reusable Vehicles
    Reusable launch vehicles are commonly proposed as responsive and 
inexpensive alternatives to expendable rockets. Analogies to aircraft 
systems suggest that reusing flight hardware should substantially 
reduce cost. However, in the case of the Space Shuttle this was not the 
case.
    Understanding the achievable operability of future reusable launch 
vehicles is crucial in determining their viability. Aerospace developed 
the Operability Design Model specifically to evaluate maintenance, 
turnaround operations, and recurring cost as a function of launch 
system design. Using this tool, Aerospace evaluated the design features 
that control operability and determined that a new vehicle could 
improve operations by one to two orders of magnitude compared with the 
Space Shuttle simply by incorporating:

  <bullet> Reduced vehicle complexity to reduce the number and type of 
        components that must be serviced

  <bullet> Increased design margins to provide a robust vehicle design 
        with improved component life

  <bullet> Improved accessibility and Line Replaceable Units (LRUs) to 
        facilitate maintenance

  <bullet> Modern thermal protection systems with 100 times the 
        durability of Shuttle tiles

  <bullet> Integrated Vehicle Health Monitoring to automate vehicle 
        checkout

  <bullet> Modern propulsions system designs with 10 times longer 
        system life

  <bullet> Non-toxic propellants that don't require hazardous 
        processing

  <bullet> Standardized practices and procedures for vehicle repair

    Even with the industry's best operability analysis tools, experts 
agree that such estimates carry significant uncertainty. Credible 
estimates of turnaround time for the next reusable launch vehicle range 
from 2 to 10 days. This uncertainty is a problem for the Air Force 
because it will affect how many vehicles and facilities are needed to 
accommodate a surge in demand (for example, during wartime). This 
affects cost sufficiently that the difference between a 2-day and 10-
day turnaround may determine the ultimate choice between expendable or 
reusable launch vehicles.
    Estimates of reusable launch vehicle production cost are also 
uncertain because the only actual data point is the Space Shuttle. The 
per-pound cost to build each orbiter was twice that of the Air Force's 
most expensive aircraft, the B-2 bomber. Were this to hold true for the 
next reusable launch vehicle, production costs would severely limit its 
affordability. There are, however, rational arguments suggesting the 
cost will be lower. For example, the shuttle was the first of its kind, 
and was never optimized to control production cost. The orbiters have 
life-support systems, and must be built to safeguard the lives of the 
crew. The shuttle features distributed, rather than modular, 
subsystems. The shuttle program did not have access to the latest 
materials and production technologies. All of these problems can be 
corrected or minimized by using modern designs, technologies, and 
production techniques. Nonetheless, a factor-of-two uncertainty in 
production cost greatly affects the decision on expendable versus 
reusable launch vehicles.
    According to Aerospace analyses, reusable launch vehicles that have 
been optimized for minimum dry mass have staging velocities (that is, 
the velocity at which the second stage deploys) roughly between Mach 
10.5 and 11.5. In this case, the orbiter will be about half the dry 
mass of the booster. The mass of the reusable launch vehicle will grow 
steadily as the staging velocity deviates from this range. For example, 
if the staging velocity grows higher, the booster must be bigger to 
generate more thrust; if the staging velocity is lower, the upper stage 
will have to make up the difference to reach orbit. This is the problem 
faced by single-stage reusable launch vehicles. Single-stage vehicles 
are not practical without significant advancements in materials and 
propulsion technologies; however, two-stage vehicles are undeniably 
feasible, given the state of existing technologies.
Air-Breathing Reusable Vehicles
    The appeal of air-breathing vehicles is that they get their 
oxidizer from the atmosphere, rather than carry it with them. Thus, 
they might, at least in theory, be smaller and less expensive than 
conventional rockets. The X-43A/C demonstrator programs represent 
crucial steps toward achieving an operational hypersonic capability. 
The recent successful proof-of-concept X-43A flight demonstration is an 
important and welcomed milestone. These demonstrations should provide a 
more credible foundation for predicting hypersonic vehicle performance, 
building upon, and hopefully, validating available CFD analyses and 
prior short duration wind tunnel tests. Many challenges remain before 
an operational capability can be achieved, particularly in the 
following areas of system operability over the complete mission flight 
regime:

  <bullet> Propulsion

  <bullet> Structures and materials

  <bullet> Airframe aerodynamics and controls

  <bullet> Thermal management

    The Aerospace Corporation concurs with the space access development 
roadmap established by the NASA/Air Force Partnership Council in its 
assessment of hypersonic vehicles. A series of demonstrators increasing 
in scale and operational realism will allow for maturation of 
hypersonic technologies to an operational status. This development 
effort was estimated at about $24 billion (excluding the rocket-
oriented efforts), requiring at least 15 years to complete. In this 
regard, we feel that hypersonic vehicles offer potential as a far-term 
solution but should be considered high risk.
Hybrid Vehicles
    A hybrid vehicle consisting of a combination of a reusable booster 
with expendable upper provides a lower risk alternative to achieve 
responsive and affordable space lift. It could potentially reduce 
current launch costs by a factor of three and achieve a routine 
turnaround time of 2 to 4 days. Assuming optimal staging, at about Mach 
7, the hybrid vehicle would only expend about one third as much 
hardware as a comparable expendable rocket. Thus, their recurring 
production costs are much lower. Also, the mass of the reusable booster 
stage for a hybrid is about 45 percent that of a fully reusable launch 
vehicle. Consequently, development and production costs are 
significantly less. For these reasons, even relatively low launch rates 
could economically justify their development.
    The hybrid vehicle also carries less risk than a fully reusable 
launch vehicle primarily because it does not employ a reusable orbiter. 
Reusable orbiters present a difficult technical challenge, as they must 
survive on-orbit operations and reentry through Earth's atmosphere 
without significant damage. The reusable booster experiences a much 
less severe environment, resulting in fewer technical challenges and 
less risk.
    Figure 1 depicts the estimated manpower to process a hybrid 
compared with the Space Shuttle and the rationale to achieve a 26-hour 
turnaround time.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Figure 1. Comparison of Processing Manpower For Space Shuttle and 
Hybrid Vehicles

    Designed with higher margins and vehicle health monitoring, the 
next generation of rocket engines is anticipated to have an operational 
life of 100 flights with a turn-time of 1-2 shifts. Electro-mechanical 
actuators and self-contained hydraulics can eliminate most of the time-
consuming activities required to process the Shuttle hydraulic system. 
Batteries can replace complex fuel cells and auxiliary power units. The 
thermal environment for the hybrid's reusable booster would require 
minimal thermal protection systems. The booster would also have a 
limited need for reaction control systems that could be provided by 
gaseous reactants. Cannisterized payloads eliminate the need for 
payload bay reconfiguration between flights. The hybrid vehicle itself 
would not contain crew systems. Numerous other enhancements have been 
identified that give a hybrid vehicle a short 26-hour timeline. Many of 
these enhancement apply to both hybrids and full reusable systems, but 
due to the added complexity and the stressing thermal environment of an 
orbiter, reusables have longer processing timelines and with higher 
uncertainty and risk.
Development Strategy
    While many development strategies have been considered over the 
years, the Air Force favors an evolutionary approach, focusing on 
incremental enhancements in capability. Flight tests of a demonstration 
vehicle are critical--to reduce uncertainties regarding achievable 
production cost and responsiveness, to supply information needed to 
crystallize a decision on an objective system, and to provide an 
affordable flight test bed to demonstrate design features and 
technologies needed to achieve various future technical objectives.
    The hybrid is considered a relatively low-risk first step toward an 
operationally responsive spacelift capability, one with clear 
advantages over expendable and reusable launch vehicles. The 
performance of this hybrid will have far-reaching implications. If the 
cost and responsiveness of the reusable booster turn out to be on the 
low end of predictions, then the Air Force and NASA might decide to 
pursue a fully reusable launch vehicle as the next step. If not, then 
the hybrid configuration would still provide a cost effective solution.
    Clearly, no first step in an evolutionary process can satisfy all 
the objectives of defense, civil, and commercial sectors. But the 
evolutionary approach establishes a low-risk process for building upon 
successes, ultimately supporting most or all spacelift needs. As they 
mature, this approach allows new technologies to be incorporated into 
the system to enhance system capability at low technical risk.
Modular Launch System Design
    The initial cost of a new launch system for either DOD or NASA is 
relatively high. The combined cost of system development, facilities, 
and fleet procurement will reach well into the billions of dollars, 
even for small fleets. For this reason, it may be unaffordable to 
develop completely separate reusable launch vehicle designs for 
defense, commercial, and civil communities. By minimizing the number 
and type of stages that need to be developed, modular development 
approaches will probably be more affordable to pursue to support the 
needs of the DOD, civil and commercial community. For example, 
derivatives of boosters and orbiters could be used in various 
configurations to support a wide range of payload classes. While the 
derivatives would not be identical to the original vehicles, they would 
possess common systems and components, thus reducing development and 
production costs. This commonality would also reduce the operational 
costs of logistics and sustaining engineering, which are major 
recurring costs.
    Figure 2 is an example of a notional spacelift architecture, 
designed by Aerospace to support a broad range of payloads, based on 
derivatives of only two vehicle elements. The first vehicle is a hybrid 
capable of launching 12,800 lbs to low earth orbit. Converting the 
hybrid's reusable booster to an obiter that is combined with a new 
larger booster generates a 25,000 lb. lift capacity. Combining two of 
these boosters with a third orbiter derivate increases lift capacity to 
87,000 lbs. Finally using two of the larger booster with an EELV common 
core booster produces a super heavy lift capacity of 160,000 lbs.


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Figure 2. Modular Family of Vehicles--Based on Variants of 2 
Reusable Stages

    In closing, the ORS AoA recommends the Air Force pursue an advanced 
launch vehicle development strategy that incorporates an evolutionary 
development approach. The FALCON small launch vehicle program is the 
first step in that process. A hybrid vehicle represents the next 
logical step in developing larger more affordable and responsive 
reusable solutions. It can potentially lower the cost of space 
transportation by a factor of three. If successful, subsequent steps 
that may be fully reusable could further reduce the cost of space 
transportation. Modular vehicle designs can be developed that support 
all national needs at a lower cost than developing separate systems. 
The reduced size of the engineering, logistics, and processing 
infrastructure combined with a higher vehicle flight rate will also 
minimize recurring cost. The decision on which type of system to 
ultimately procure depends on numerous factors including specific 
performance objectives, funding availability, schedule requirements, 
and organizational priorities. Aerospace studies were only able to 
address a subset of these issues. This testimony was intended to 
provide the committee information and insight gained from analyses 
performed by Aerospace and does not constitute a recommendation for the 
development of systems supporting NASA or national needs.
    Thank you for the opportunity to describe The Aerospace 
Corporation's advanced launch system studies.
    I stand ready to provide any further data or discussions that the 
committee may require.

    Senator Brownback. Thank you, Mr. Hickman. I appreciate you 
doing that.
    Senator Breaux. Mr. Chairman?
    Senator Brownback. Yes?
    Senator Breaux. Prior to the time that Mr. Musk testifies, 
I'd like to make a comment, and I do so with utmost respect for 
the Committee and the Chairman. But I reviewed Mr. Musk's 
statement, a third of it deals with a protest, which he is 
financial involved in, about a contract with NASA. I asked the 
Administrator of NASA about the current contract that exists in 
this particular area, and he said that that contract award is 
currently under investigation by the General Accounting Office, 
and that he could not respond to what was going to happen with 
that until the inspection and the review by GAO is completed.
    Mr. Musk has an interest in that outcome, and I think it's 
patently unfair to allow him to use this forum, without the 
other parties involved in that contract having an equal 
opportunity, at the same forum, to be heard to express their 
opinion of what is going on with regard to those contracts. It 
was very clear that NASA was unable to comment on it because 
it's under review.
    And Mr. Musk's testimony--a third of which deals directly 
with that. I appreciate where he's coming from, but it's 
patently unfair to not have the other side present at the same 
forum, dealing with something that's under review by the 
government in a contract dispute.
    Senator Brownback. The reason the Committee had asked Mr. 
Musk to testify was on heavy-lift capacity. I mean, what we 
were trying to examine at the first of the hearing was Shuttle 
options, and the second portion of it here obviously is heavy-
lift capacity. So maybe, Mr. Musk, if we could confine your 
comments to the issue of heavy-lift capacity, and not to the 
issue that's under review, would be an appropriate thing to do. 
And it's certainly not the Committee's desire to favor one 
group or another on anything. It's to try to get to some of the 
bottom of the factual settings that are taking place. So if 
that would be----
    Senator Breaux. I just want to say how much I appreciate 
the Chairman's position on it. I don't mind a complete 
discussion on the issue. That's an appropriate thing for the 
Committee to do, as long as we have all of the interested 
parties making the presentation. And I think your suggestion is 
very, very fair.
    Senator Brownback. If we could confine your oral 
presentation, Mr. Musk, to the issue that we're discussing here 
today, which is heavy-lift capacity and options to finish the 
ISS, I would appreciate that.
    Mr. Musk. Certainly. Although, it's worth correcting--I 
think Mr. Readdy misspoke when he said it was competitive. It 
was, in fact, not competitive, and that is the nature of the 
protest. So I just wanted to correct that reply.
    Senator Brownback. Let's just stay to heavy-lift capacity 
issues----
    Mr. Musk. Absolutely.
    Senator Brownback.--and finishing ISS, please.

           STATEMENT OF ELON MUSK, CHAIRMAN AND CHIEF

   EXECUTIVE OFFICER, SPACE EXPLORATION TECHNOLOGIES (SPACEX)

    Mr. Musk. So, Mr. Chairman and Members of the Committee, 
thank you for inviting me to testify here today.
    The past few decades have been a dark age for development 
of new human space transportation systems. One multibillion 
dollar government program after another has failed. In fact, 
they have failed even to reach the launch pad, let alone get to 
space. Those in the space industry, including some of my panel 
members, have felt the pain firsthand. The public, whose hard-
earned money has gone to fund these developments, has felt it 
indirectly. The reaction of the public has been to care less 
and less about space, an apathy not intrinsic to a nation of 
explorers, but born of poor progress, of being disappointed 
time and again.
    When America landed on the Moon, I believe we made a 
promise and gave people a dream. It seemed then that, given the 
normal course of technological evolution, someone who was not a 
billionaire--not an astronaut made of ``the right stuff,'' but 
just a normal person--might one day see Earth from space. That 
dream is nothing but broken disappointment today. If we do not 
now take action different from the past, it will remain that 
way.
    So what strategies are critical to the future of space 
launch vehicle development? And here my testimony, I think, 
will be a little different. First and foremost, I think we 
should increase and extend the use of prizes. This is a point 
whose importance cannot be overstated. If I can emphasize, 
underscore, and highlight one strategy for Congress, it is to 
offer prizes of meaningful scale and scope.
    This is a proposition where the American taxpayer cannot 
lose. Unlike standard contracting, where failure is often 
perversely rewarded with more money, failure to win a prize 
costs us nothing. Offering substantial prizes for achievement 
in space could pay enormous dividends. We're beginning to see 
how powerful this can be by observing the X Prize, a prize for 
suborbital human transportation, which is on the verge of being 
won. It is a very effective use of money, as vastly more than 
the $10 million of prize money is being spent by dozens of 
teams that hope to win. At least as important, however, is the 
spirit and vigor it has injected into the space industry and 
the public-at-large. It is currently the sole ember of hope 
that 1 day they, too, may travel to space.
    Beyond space, as the Committee is no doubt aware, history 
is replete with examples of prizes spurring great achievements, 
such as the Orteig prize for crossing the Atlantic nonstop by 
plane, and the Longitude Prize for ocean navigation.
    Few things stoke the fires of creativity and ingenuity more 
than competing for a prize in fair and open competition. The 
result is an efficient Darwinian exercise with the subjectivity 
and error of proposal evaluation removed. The best means of 
solving the problem will be found, and that solution may be in 
a way and from a company that no one ever expected.
    One interesting option, although radical, might be to 
parallel every major NASA contract with a price valued at one-
tenth of the contract amount. If another company achieves all 
of the contract goals first, they receive the prize and the 
main contract is canceled, but the objective achieved. At 
minimum, it will serve as a spur for whoever does win the main 
contract.
    Some people believe that no serious company would pursue a 
prize; this is simply beside the point. If a prize is not won, 
it costs us nothing. Put prizes out there, make them of 
meaningful size, and many companies will vie to win, 
particularly if there are a series of prizes of successively 
greater difficulty and value. I recommend strongly supporting, 
and actually substantially expanding up, the proposed 
Centennial prizes put forward in the recent NASA budget. No 
dollars spent on space research will yield greater value for 
the American people than those prizes.
    Second, I think we should rigorously examine how any 
proposed new vehicle will improve the cost of access to space 
rigorously. The obvious barrier to human exploration beyond 
low-Earth orbit is the cost of access to space. This problem of 
affordability dwarfs all others. I do not think there are 
multiple problems in space; I think there is one, and that is 
the cost of access to space.
    If we do not set ourselves on the track to solving it with 
a constantly improving price-per-pound to orbit, in effect, a 
Moore's Law of space, neither the average American, nor their 
great-great-grandchildren will ever see another planet. We will 
be forever confined to Earth, and may never come to understand 
the true nature and wonder of the universe. So it is critical 
that we thoroughly examine the probable cost of alternatives to 
replacing the Shuttle before embarking upon a new development. 
The Shuttle today costs about a factor of ten more per flight 
than originally projected. We do not want to be in a similar 
situation with its replacement.
    In fact, it was precisely to improve the cost and 
reliability of access to space--initially for satellites, and 
later for humans--that I established SpaceX, although some of 
my friends still think the real goal was turn a large fortune 
into a small one.
    Our first offering, called Falcon I, will be the world's 
only semi-reusable orbital rocket, apart from the Space 
Shuttle. In fact, we employ a reusable first stage and an 
expendable upper stage, as Aerospace Corporation recommends as 
the smart approach to improving cost. So although Falcon I is a 
light-class launch vehicle, we have already announced and sold 
the first flight of Falcon V, our medium-class rocket.
    Long-term plans called for development of a heavy-lift, and 
even a super-heavy, if there was customer demand. We expect 
that each size increase would result in a meaningful decrease 
of cost-per-pound to orbit. For example, dollar-cost-per-pound 
to orbit dropped from $4,000 to $1,300 between Falcon I and 
Falcon V. Ultimately, I believe $500-per-pound or less is very 
achievable.
    Item 3 was ensuring fairness in contracting, but I will 
stop there.
    [The prepared statement of Mr. Musk follows:]

  Prepared Statement of Elon Musk, Chairman, CEO of Space Exploration 
                      Technologies Corp. (SpaceX)
    Mr. Chairman and Members of the Committee, thank you for inviting 
me to testify today on the future of Space Launch Vehicles and what 
role the private sector might play.
    The past few decades have been a dark age for development of a new 
human space transportation system. One multi-billion dollar Government 
program after another has failed. In fact, they have failed even to 
reach the launch pad, let alone get to space. Those in the space 
industry, including some of my panel members, have felt the pain first 
hand. The public, whose hard earned money has gone to fund these 
developments, has felt it indirectly.
    The reaction of the public has been to care less and less about 
space, an apathy not intrinsic to a nation of explorers, but born of 
poor progress, of being disappointed time and again. When America 
landed on the Moon, I believe we made a promise and gave people a 
dream. It seemed then that, given the normal course of technological 
evolution, someone who was not a billionaire, not an astronaut made of 
``The Right Stuff'', but just a normal person, might one day see Earth 
from space. That dream is nothing but broken disappointment today. If 
we do not now take action different from the past, it will remain that 
way.
What strategies are critical to the future of space launch vehicles?
1. Increase and Extend the Use of Prizes
    This is a point whose importance cannot be overstated. If I can 
emphasize, underscore and highlight one strategy for Congress, it is to 
offer prizes of meaningful scale and scope. This is a proposition where 
the American taxpayer cannot lose. Unlike standard contracting, where 
failure is often perversely rewarded with more money, failure to win a 
prize costs us nothing.
    Offering substantial prizes for achievement in space could pay 
enormous dividends. We are beginning to see how powerful this can be by 
observing the X Prize, a prize for suborbital human transportation, 
which is on the verge of being won. It is a very effective use of 
money, as vastly more than the $10 million prize is being spent by the 
dozens of teams that hope to win. At least as important, however, is 
the spirit and vigor it has injected into the space industry and the 
public at large. It is currently the sole ember of hope that one day 
they too may travel to space.
    Beyond space, as the Committee is no doubt aware, history is 
replete with examples of prizes spurring great achievements, such as 
the Orteig Prize for crossing the Atlantic nonstop by plane and the 
Longitude prize for ocean navigation.
    Few things stoke the fires of creativity and ingenuity more than 
competing for a prize in fair and open competition. The result is an 
efficient Darwinian exercise with the subjectivity and error of 
proposal evaluation removed. The best means of solving the problem will 
be found and that solution may be in a way and from a company that no-
one ever expected.
    One interesting option might be to parallel every major NASA 
contract award with a prize valued at one tenth of the contract amount. 
If another company achieves all of the contract goals first, they 
receive the prize and the main contract is cancelled. At minimum, it 
will serve as competitive spur for cost plus contractors.
    Some people believe that no serious company would pursue a prize. 
This is simply beside the point: if a prize is not won, it costs us 
nothing. Put prizes out there, make them of a meaningful size, and many 
companies will vie to win, particularly if there are a series of prizes 
of successively greater difficulty and value.
    I recommend strongly supporting and actually substantially 
expanding upon the proposed Centennial Prizes put forward in the recent 
NASA budget. No dollar spent on space research will yield greater value 
for the American people than those prizes.
2. Rigorously Examine How Any Proposed New Vehicle Will Improve the 
        Cost of 
        Access to Space
    The obvious barrier to human exploration beyond low Earth orbit is 
the cost of access to space. This problem of affordability dwarf's all 
others. If we do not set ourselves on the track of solving it with a 
constantly improving price per pound to orbit, in effect a Moore's law 
of space, neither the average American nor their great-great-
grandchildren will ever see another planet. We will be forever confined 
to Earth and may never come to understand the true nature and wonder of 
the Universe. So it is critical that we thoroughly examine the probable 
cost of alternatives to replacing the Shuttle before embarking upon a 
new development. The Shuttle today costs about a factor of ten more per 
flight than originally projected and we don't want to be in a similar 
situation with its replacement.
    In fact, it was precisely to improve the cost and reliability of 
access to space, initially for satellites and later for humans, that I 
established SpaceX (although some of my friends still think the real 
goal was to turn a large fortune into a small one). Our first offering, 
called Falcon I, will be the world's only semi-reusable orbital rocket 
apart from the Space Shuttle. Although Falcon I is a light class launch 
vehicle, we have already announced and sold the first flight of Falcon 
V, our medium class rocket. Long term plans call for development of a 
heavy lift product and even a super-heavy, if there is customer demand. 
We expect that each size increase would result in a meaningful decrease 
in cost per pound to orbit. For example, dollar cost per pound to orbit 
dropped from $4,000 to $1,300 between Falcon I and Falcon V. 
Ultimately, I believe $500 per pound or less is very achievable.
3. Ensure Fairness in Contracting
    It is critical that the Government acts and is perceived to act 
fairly in its award of contracts. Failure to do so will have an 
extremely negative effect, not just on the particular company treated 
unfairly, but on all private capital considering entering the space 
launch business.
    SpaceX has directly experienced this problem with the contract 
recently offered to Kistler Aerospace by NASA and it is worth drilling 
into this as a case example. Before going further, let me make clear 
that I and the rest of SpaceX have a high regard for NASA as a whole 
and have many friends & supporters within the organization. Although we 
are against this particular contract and believe it does not support a 
healthy future for American space exploration, this should be viewed as 
an isolated difference of opinion. As mentioned earlier, for example, 
we are very much in favor of the NASA Centennial Prize initiative.
    For background, the approximately quarter billion dollars involved 
in the Kistler contract would be awarded primarily for flight 
demonstrations & technology showing the potential to resupply the Space 
Station and possibly for transportation of astronauts.
    That all sounds well and good. The reason SpaceX is opposing the 
contract and asking the General Accounting Office to put this under the 
microscope is that it was awarded on a sole source, uncompeted basis to 
Kistler instead of undergoing a full, fair and open competition. SpaceX 
and other companies (Lockheed and Spacehab also raised objections) 
should have, but were denied the opportunity to compete on a level 
playing field to best serve the American taxpayer. Please not that this 
is a case where SpaceX is only asking for a fair shot to meet the 
objectives, not demanding to win the contract.
    The sole source award to Kistler is mystifying given that the 
company has been bankrupt since July of last year, demonstrating less 
than stellar business execution (if a pun is permitted). Moreover, 
Kistler intends to launch from Australia using all Russian engines, 
raising some question as to why this warrants expenditure of American 
tax dollars.
    Now, although we feel strongly to the contrary, it is possible that 
NASA has made the right decision in this case. However, does awarding a 
sole source contract to a bankrupt company over the objections of 
others sound like a fair decision? Common sense suggests the answer. 
Whether Kistler does or does not ultimately deserve to win this 
contract, it should never have been awarded without full competition.
    Again, thank you for inviting me to testify before you today.

    Senator Brownback. Thank you very much.
    Gentlemen, thank you very much for the testimony.
    The first three gentlemen, you all three identified 
significant options for heavy-lift capacity that are currently 
available. Mr. Kahn, you were saying, let's use the Shuttle-
engine portions of this when we can--we can reconfigure, use 
that, that that's a proven system, and that you can get--what 
would you say--what were you saying the lift capacity you could 
get up to in using that--150,000?
    Mr. Kahn. 150,000.
    Senator Brownback. What's that?
    Mr. Kahn. 150,000.
    Senator Brownback. 150,000?
    And, Dr. Karas, you were saying you could get up to 200,000 
pounds in a lift capacity?
    Dr. Karas. You could, but I think--apples-to-apples, it's 
about 150,000 pounds, as well, in the near term.
    Senator Brownback. In the near term. What do you mean by 
``near term''?
    Dr. Karas. Within the technology and infrastructure we have 
today, 3 to 5 years.
    Senator Brownback. Mr. Kahn, what's your time-frame to be 
able to do what you're talking about, of lift capacity using 
Shuttle----
    Mr. Kahn. Well, the----
    Senator Brownback.--technology?
    Mr. Kahn.--propulsion part of the lift capacity, which is 
the boosters and the tank and the engines, are already flying 
today, so they exist. So it's just, How long does it take to 
build a cargo carrier and bolt it onto the tank, instead of 
bolting on the orbiter?
    Senator Brownback. Any idea on that, of a cargo carrier, of 
what it would take to do?
    Mr. Kahn. It's probably in the order of 3 to 5 years, as 
well.
    Senator Brownback. To get that pulled together?
    Mr. Hickman, in your approach you're talking about 160,000 
pounds lift capacity, is that correct?
    Mr. Hickman. That's correct.
    Senator Brownback. OK. And what's the time-frame of your 
development to do something like that, along the lines of what 
you've described?
    Mr. Hickman. Well, we propose more of an evolutionary 
approach to get there----
    Senator Brownback. Just get that microphone up a little 
closer.
    Mr. Hickman. We propose more of an evolutionary approach to 
get there, starting off with smaller payloads and lift 
vehicles, and growing to the larger ones. I think one of the 
things that it's important to emphasize, that we weren't just 
trying to achieve a specific lift capacity, but the 
transformational capabilities that most of the sectors need 
also depend on responsiveness and significantly lower cost; so 
we looked at hybrid and reusable vehicles to do that. And we 
think they're really not limited by technology, currently, but 
by available funding. With a well-funded program, I think the 
time frame to get to heavy lift would be in the eight to ten-
year time frame.
    Senator Brownback. Eight to ten-year to get there.
    Gentlemen, why is it so costly for us? We've been at this 
now five decades, to get into space. We're costing--Shuttle is 
a four-billion-plus annual program, whether it flies or not--
you know, a billion dollars a shot. I mean, this is difficult, 
but it's extraordinarily expensive. Can you tell me why this 
has remained so expensive and over the lines of what we thought 
it would be at this point in time?
    Mr. Hickman. I'll try to address that question, if I may. 
Currently, in our ORS AoA study, which we did for the military 
to look at their----
    Senator Brownback. Get that microphone up closer, will you 
please?
    Mr. Hickman. In the AoA, the analysis of alternatives, that 
we performed for the military, we looked at a large number of 
costs for aerospace systems across the board--aircraft, 
missiles, cruise missiles, ballistic missiles. They all seemed 
to have a floor of about $750 a pound, is what it basically 
costs to make fairly sophisticated hardware. We did not see 
that we'd get significantly below that floor unless you move 
toward reusable systems. And so we think that one of the key 
things, though, is to design those systems to be operable from 
the outset. The Shuttle was not designed with the factors 
necessary to make it operable. We believe, with a highly 
focused program, focused on operability, and the proper use of 
reusability--and we think that's in the hardware of the first 
stage--that you can get down to a factor-of-three reduction in 
cost over what we're seeing today.
    Dr. Karas. Mr. Chairman, I'd like to respond. I think the 
Shuttle is a wonderful machine and has a lot of capabilities 
that expendables don't, like cargo-down. So I think those are 
other factors that drive cost.
    I think in the case of ELV, or if we take Atlas 
specifically, as I mentioned, we've phased in many vehicles. 
Every time we had a different vehicle phase-in, we improved 
reliability and performance. In the competitive environment--
it's kind of hard in an open environment to go, quote, 
``cost,'' but I think in my paper I stated that you can buy 
vehicles for significantly cheaper than the $6,000 per pound 
today. It's probably two or three times less that, off the 
shelf. And I think we can get the dollars a pound that are in 
the $2,000 to 1.5--$1,500 a pound, relatively easily using the 
scales of economy that we've talked about.
    So I think you can probably draw a line through at least 
through Atlas and the last 10 years of constant progression of 
dollar per pound coming down. So I think there are areas where 
we have done that. We have a long way to go. But I think it's 
significantly less than the Shuttle because of the different 
driving requirements.
    Senator Brownback. Would that auger for--that we need to 
move away from the Shuttle as fast as possible to other type of 
lift capacity to finish ISS?
    Dr. Karas. I think Bill Readdy put it best, where it's all 
about the requirements. And I think there are heavy-lift 
requirements that can have the payload capacity, both 
volumetrically and weight-wise, to put cargo to Station. But 
it's all the other things that expendables don't have today, 
like rendezvous and dock, human interfaces, robotics, to be 
able to service the Station.
    So there are different requirements, and we are working 
with NASA in studies to go evaluate those things for them. But 
I think in the near term, it would be hard to go do that 
because of the capacity that the expendables don't have.
    Senator Brownback. And the other areas that they don't 
have.
    Mr. Musk, what's a meaningful prize? What's the size of a 
meaningful prize to get people to do some of the things that we 
would like to see private sector engage in, in space?
    Mr. Musk. I think you can get very meaningful outcomes for 
dollar figures in the tens of millions. And certainly, I think, 
for something like $100 million for repeating the John Glenn 
flight has been suggested. I think that is eminently doable. In 
fact, I would say--here's a good way to approach something: If 
you get an estimate, whatever the NASA estimate is to get 
something done, erase a zero and make that a prize. And I think 
you will find that it is done for that amount of money.
    Senator Brownback. Gentlemen, I have another hearing I need 
to go to. I appreciate very much you coming in, providing your 
expertise and your thoughtfulness, the written testimony, as 
well. Thank you so much.
    The hearing's adjourned.
    [Whereupon, at 4:25 p.m., the hearing was adjourned.]

                            A P P E N D I X

            Prepared Statement of Hon. Ernest F. Hollings, 
                    U.S. Senator from South Carolina
    As the Congress evaluates the President's proposal to return to the 
Moon by the end of the next decade, our focus has turned to the Gordian 
Knot at its heart. Since there is no new money for this effort, we have 
an extremely tight schedule built on many interwoven, complex changes 
to the U.S. Space Program. All of these changes must unfold in neat, 
sequential order without any hiccups in order for the proposal to 
succeed.
    The plan assumes NASA will stop flying the Shuttle on a date 
certain, transferring its funds to the new Exploration Program, and 
that NASA eventually end U.S. participation in the International Space 
Station so that funding for the campaign to settle the Moon can start 
in earnest. The President's schedule, and proposed funding, is such 
that any upset in one part of the timetable will upset another part. 
Therefore, even the rather casual deadline of 2020 may be hard to 
accomplish unless everything goes just right.
    And there are a couple of additional flies in this ointment. NASA 
has proposed that many laudable NASA science programs should be 
delayed, deemphasized, and probably cancelled in order to put this new 
Vision in place. NASA has also proposed that for some time, presumably 
from 2010 to 2014, there will be no Shuttle and no U.S. replacement 
vehicle to fly U.S. crew to and back from the Space Station. I think 
it's unlikely that this or any future Congress is going to go along 
with those parts of this plan. But both of these assumptions are also 
key to making this plan work within the resources the President has 
assigned to the Vision.
    So here we have the Gordian Knot--you probably can't execute the 
timetable as it's proposed, but when you look for how you might change 
it in order to either keep it on schedule or even accelerate it, you 
come to very hard choices.
    That's part of what this hearing is going to discuss today--how do 
we move forward to renew and reenergize the U.S. Space Program, but not 
bring it to collapse and confusion by introducing interruptions that 
might threaten to put the program into further chaos.
    As I said in my statement on April 1, ``You can't sustain 
commitment to the U.S. Space Program by shutting it down, and you can't 
accelerate development while you are in a sustained lull.'' I stand by 
those words again today. You can't slow down and you can't speed up and 
make the President's Vision work, not without a lot more funding and a 
very different way of doing business than we have in the past.
    There are some who want to discuss ``scuttling the Shuttle''. But 
there is much at stake in these discussions that a simple phrase does 
not capture, including American lives on board an orbiting space 
laboratory. At the end of this discussion, let's be clear that whatever 
vision or space mission the U.S. chooses to conduct in the future, it 
must be done safely and with emphasis on reducing human risk, not 
extending it needlessly. So we need to be careful to not get so 
bollixed up in schedules and assumptions and new plans that we turn the 
President's Vision into something that adds risk to Human Space Flight 
instead of decreasing it.
    I don't know what the answer is, but we need a whole lot more 
answers and discussion than we've heard to date. My fear is that 
today's hearing and others like it are going to start taking us in the 
wrong direction, into more confusion than clarity. That's one reason 
why the President's Vision concerns me; in this year of tragedy in the 
American Space Flight Program, we need to be wholly focused on putting 
the U.S. program firmly on its feet and cautious about any vision that 
takes us in any other direction. Let's focus on adding prestige and 
integrity to our U.S. Space Flight program, not cause for further 
uncertainty and alarm.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                           William F. Readdy
    Question 1. What infrastructure improvements will be needed to 
support the increased Space Shuttle flight rate to complete the 
International Space Station (ISS)?
    Answer. The planned flight rate does not necessitate physical 
infrastructure improvements. Maintenance associated with sustaining the 
existing infrastructure will be required. Additionally, irrespective of 
the flight rate, NASA is making improvements to our management 
processes and human capital infrastructure in response to the CAIB 
report recommendations, including the establishment of an independent 
technical authority.

    Question 2. Can you update the Committee on the status of the 
development of the European Automated Transfer Vehicle and the Japanese 
H-II Transfer vehicle?
    Answer. The Automated Transfer Vehicle (ATV) is at the European 
Space Agency (ESA) facility near Amsterdam for approximately 8 months 
of final assembly and verification. ESA has recently slipped the target 
launch date for ATV from July 2005 to October 2005 due to schedule 
challenges for the Ariane 5 rocket modifications that are required in 
order to carry the ATV.
    The H-II Transfer Vehicle (HTV) development is on track for launch 
in Spring 2009. HTV Critical Design Review Number 1 is scheduled for 
December 2004. In parallel, the Japanese Aerospace Exploration Agency 
(JAXA) is evaluating enhanced HTV capabilities to launch and return 
International Space Station critical cargo and spares due to Shuttle 
retirement.

    Question 3. Does NASA have any contingency plans in the event the 
Space Shuttle is not able to provide the necessary assembly flights to 
the ISS?
    Answer. NASA is concentrating its focus on a safe Return to Flight 
of the Space Shuttle. All indications, as of this writing, are that the 
Shuttle will Return to Flight in March of 2005, after which, we fully 
anticipate it being able to complete its mission of the assembly of the 
ISS.
    NASA is working diligently to evaluate the current manifest of 
flights to the ISS. The ISS on-orbit configuration and assembly 
sequence are being evaluated. The complement of available and proposed 
domestic and international vehicles that are capable of delivering 
crew, spares, experiments, and crew support cargo to and from the ISS 
is also under evaluation. These evaluations are expected to be complete 
in the summer and will provide a better idea of how many Shuttle 
flights will actually be needed to complete assembly of the ISS.

    Question 4. Can you elaborate on how and why the ISS elements have 
been designed to take advantage of the Shuttle's unique volume and 
performance, and more benign launch environment?
    Answer. The design and development of Space Station Freedom and 
then the ISS took maximum advantage of the large cargo volume and heavy 
lift of the Shuttle, which has the greatest lift capability of any U.S. 
Launch Vehicle. The Space Shuttle, with the greatest cargo capacity, 
allowed for fewer assembly flights, less complex assembly, requiring 
less integration, and therefore lowering the assembly risk. The 
additional benefit of supporting both EVA and robotic assembly of the 
ISS were, and still are, unique to the Space Shuttle.
    Numerous ELV studies have been done over the life of the ISS 
Program. There is currently no other U.S. vehicle capable of automated 
rendezvous and proximity operations or the ability to support EVA 
construction or robotic assembly.

    Question 5. Why does NASA predict a four to five-year delay if 
Expendable Launch Vehicles (ELVs) are used to construct ISS, instead of 
a Space Shuttle?
    Answer. Current configurations of expendable launch vehicles would 
require extensive modification and development of a new transfer 
vehicle stage to transfer hardware from orbit to the ISS. Industry has 
told NASA they would require three to five years to develop a transfer 
vehicle to enable ISS cargo (non-assembly) transfer and redesign 
existing ISS structures and facilities to meet the ELV flight 
environment. Additional time would also be needed to design an ELV 
carrier that replicates the Space Shuttle attach points. The finished 
components waiting for launch were designed to fit inside the Shuttle 
payload bay. Currently, no domestic or partner launch systems have the 
capability to meet the components' volume and/or performance 
requirements without significant modification. A new assembly process 
would also need to be developed that utilizes the two-person ISS crew 
without the benefit of the Space Shuttle remote manipulator arm or the 
Shuttle crew to safely complete each assembly mission and perform 
required spacewalks.

    Question 6. What is the cost impact of delaying the assembly of the 
ISS by four to five years and using Expendable Launch Vehicles (ELVs) 
for assembly?
    Answer. The ISS program baseline, established in FY 1994, assumed 
the exclusive use of the Space Shuttle for all U.S. assembly missions 
and Partner labs after the deployment of the Russian Service Module. 
The Space Shuttle is currently the only vehicle capable of supporting 
Station assembly. The ISS was designed to use the Shuttle's automated 
rendezvous and proximity operations, robotic arm, and astronauts for 
assembly. No other vehicle can provide these capabilities at this time. 
The major ISS assembly elements are positioned at Kennedy Space Center 
awaiting Space Shuttle Return to Flight.
    Industry studies indicated that non-recurring development costs for 
new ELV capabilities would cost a total of $700 million-$1 billion. In 
addition, there would be the cost of ELVs at a rate of 7-14 flights per 
year (the equivalent of 5 Shuttle missions per year). Finally, there 
would be costs associated with the ISS Program to redesign and 
recertify the existing modules and trusses for the EELV flight 
environments and loads, which would be substantial. NASA has not 
developed cost estimates for any Station assembly alternative.

    Question 7. If the Space Shuttle returns to flight next year, what 
is the cost of the two-year delay in assembling the ISS?
    Answer. During FY 2003, NASA funded $21 million worth of ISS 
impacts associated with Columbia and has approved an additional $76 
million in FY 2004. An additional $225 million of Level I and Level II 
threats remain, of which $40 million is associated with the one-year 
slip into 2005. NASA is currently assessing the impact of the Shuttle 
Return to Flight schedule as a part of the FY 2006 budget development 
process and will update the impacts associated with Columbia once 
Shuttle Return to Flight is achieved.

    Question 8. What are the attributes of an effective national space 
launch system and its accompanying infrastructure?
    Answer. An effective national space launch system provides 
sufficiently capable, safe, reliable and cost-effective launch services 
to meet national needs. Such a system could be comprised of multiple 
different launch vehicles using unique or shared infrastructure.

    Question 9. Considering the current restrictive budgetary 
environment, how can a viable national space launch system be built and 
how will the private sector participate?
    Answer. The nation currently has a mix of reusable and expendable 
launch systems forming the basis of the Nation's space launch 
capability. Both national security and civil space launch requirements 
are met by commercial launch capability. NASA and the national security 
community work together to leverage each other's capability and seek 
synergy in investments in national launch capabilities

    Question 10. The President's plan would terminate the Space Launch 
Initiative (SLI) program that was, inter alia, developing new launch 
vehicle technologies, and would retire the Shuttle fleet after ISS 
construction is completed in 2010. What launch vehicle will supplant 
the Space Shuttle after its retirement?
    Answer. The Space Shuttle program has provided NASA with a 
tremendous space flight experience base. It has expanded our knowledge 
of complex space vehicles. The Exploration Systems Enterprise will 
apply lessons learned from the Space Shuttle program and SLI projects 
as we develop capabilities necessary to carry out safe, sustained and 
affordable human exploration missions to the Moon, Mars and beyond.
    Over the remainder of the decade, the Space Shuttle will be used to 
complete assembly of the International Space Station (ISS). NASA is 
developing a Shuttle retirement strategy that will assure space access 
for required U.S. support to the International Space Station and future 
Space Exploration requirements. The complement of available and 
proposed domestic and international vehicles that are capable of 
delivering crew, spares, experiments, and crew support cargo to and 
from the ISS is under evaluation. These evaluations are expected to be 
complete in the summer 2004. In addition, the Crew Exploration Vehicle 
(CEV), which is being developed for a crewed mission to the Moon in the 
latter part of the next decade, could potentially be adaptable for 
missions to the ISS, though current development activities are focusing 
only on a Lunar mission.
    As the Space Shuttle is phased out, and a completed ISS becomes 
fully operational, NASA will transition development activities to human 
Lunar missions on the CEV in support of the Vision for Space 
Exploration. To best accomplish the goals of the Vision for Space 
Exploration, NASA will separate its acquisition strategy for Moon/Mars 
exploration into a number of smaller and sequential acquisition 
programs called spirals. Design and demonstration of a human launch 
system will be demonstrated in Spiral 1 with the crewed flight of the 
CEV in 2014. In support of this, NASA has initiated an integrated 
launch system study to identify the range of launch vehicle 
capabilities required to meet its exploration needs, as they are 
currently understood. Current expendable vehicles, vehicles derived 
from current system components and new vehicle designs are being 
considered to meet exploration human launch and cargo launch needs. The 
study will narrow the range of possible alternatives by the end of the 
summer. A more focused look at the capabilities will then begin, based 
on a greater understanding of the CEV requirements. The study will be 
finalized before the CEV request for proposals are released.

    Question 11. How do we encourage, to the maximum extent feasible, 
the development and growth of U.S. private sector space transportation 
capabilities that can compete internationally?
    Answer. Federal agencies support the health of commercial space 
transportation through a myriad of roles. Most importantly, the Federal 
Government enables a stable business base by purchasing launch services 
that can leverage international and commercial sales, and through 
balanced regulatory and national range policies and procedures. NASA 
and the DOD also invest in enhancements to launch systems to meet 
unique government requirements (additional performance, reliability and 
or volume (fairings) upgrades), which increase the competitiveness of 
the U.S. suppliers. With recent reductions in commercial demand and a 
shift back to the government as dominant user of launch systems, 
Federal agencies are developing investment strategies that include 
funding key skills and infrastructure to assure that access to space is 
achievable.

    Question 12. What role will existing Space Shuttle contractors play 
in the new space launch vehicle system?
    Answer. NASA is beginning to evaluate future workforce needs in 
support of the long-term goals of human planetary exploration. The 
retirement of the Space Shuttle is not the end of the space program but 
rather the beginning of an opportunity to transition a highly skilled 
workforce into programs requiring their skills and challenging their 
creativity. We believe, at the appropriate time, these workers who have 
Shuttle experience will be able to continue work with NASA on new 
programs requiring their unique skills. As the Shuttle Program nears 
retirement, we fully anticipate that aerospace technician employment 
opportunities will continue with NASA, driven in part by the Vision for 
Space Exploration and the continuing need to support the International 
Space Station.

    Question 13. Has NASA done any studies on the use of robots, such 
as the Robonaut, to assemble the ISS?
    Answer. The current ISS Baseline is to use the Canadian Space 
Agency (CSA)/Mobile Servicing System (MSS) for robotic assembly and 
maintenance tasks. This currently includes the CSA/Space Station Remote 
Manipulator (SSRMS), CSA/Mobile Base System (MBS), and the NASA/Mobile 
Transporter to provide robotic capability to ISS using the NASA/Robotic 
Workstation. It will include robotic maintenance tasks to be completed 
via the CSA/Special Purpose Dexterous Manipulator (SPDM) after its 
launch currently scheduled for May 2007 on Flight 1 J/A. Many of the 
ISS orbital replacement units were designed to be compatible with the 
SPDM. The ISS has been successful with robotic assembly tasks and plans 
to make extensive use of robotics.
    The Robonaut has worked extensively with EVA tools to perform 
simulated ISS assembly tasks, as both an independent agent and working 
with an astronaut in a pressurized suit. While not currently part of 
the ISS Program, the Robonaut's demonstrated capabilities indicate that 
it may have future ISS application. However, the Robonaut is at least 
3-4 years from being certified for flight.

    Question 14. It is estimated that it will require 23 to 30 Space 
Shuttle flights to complete the ISS. How can the ISS be completed by 
2010 without causing some of the schedule pressure that was documented 
in the Columbia Accident Investigation Board report?
    Answer. It should be noted that the requirement is to complete ISS 
assembly, including the U.S. components that support U.S. space 
exploration goals, planned for the end of this decade. NASA is 
evaluating the current manifest for flights to the ISS in light of the 
Vision for Space Exploration. The ISS assembly sequence and final 
configuration are being examined, as are the complement of currently 
available and proposed domestic and international vehicles that are 
capable of delivering crew and cargo to and from the ISS, and the 
predicted Shuttle return to flight date. This evaluation, which will 
factor in the historic turn around time between Shuttle flights, is 
expected to be complete in the summer 2004 and will provide a better 
idea of how many Shuttle flights will be needed to complete assembly of 
the ISS. NASA is evaluating ISS requirements against launch 
capabilities to ensure that the Shuttle can be operated safely and the 
ISS assembly can be completed by the end of the decade, consistent with 
the Vision for Space Exploration.

    Question 15. What are the requirements for downmass (astronauts, 
experiments, equipment, ISS Components, etc.) from the ISS during both 
its construction and operation?
    Answer. Currently, NASA is returning astronaut crews to Earth every 
six months. The ISS Program is currently re-evaluating the original 
systems maintenance approach, which would have required the periodic 
return of orbital replacement units for repair and refurbishment. The 
utilization community, in conjunction with the ISS Program, is also 
currently refining its estimates and looking at ways to minimize 
downmass. Results of these studies are expected later this year.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Ted Stevens to 
                           William F. Readdy
    Question. Mr. Readdy, I want to commend you for the initiative the 
Office of Space Flight is taking to encourage development of commercial 
launch systems to service the International Space Station (ISS). In 
light of the current and future limitation on the use of the Space 
Shuttle, it seems to me that it is very important for NASA to pursue 
the development of the capacity to resupply and return equipment from 
the Space Station.
    I understand that NASA is evaluating commercial approaches to the 
resupply of the International Space Station. What is your opinion of 
private companies' ability to accomplish this mission?
    Answer. I believe commercial launch systems have a substantial role 
to play in future ISS resupply. Logistics is one of the most important 
functions of Station operation. We are working with industry to 
identify capabilities that might be developed to support ISS cargo 
requirements. We intend to complete an assessment of up and down mass 
requirements so that we can better understand how commercial launch 
services might augment our resupply capability. Later this year, NASA 
will release a Request for Information (RFI), to be followed by a 
Request for Proposals (RFP) in 2005, to acquire capability as soon as 
practical and affordable to support cargo missions to and from the ISS 
and for meeting ISS operations requirements after ISS assembly is 
complete and the Space Shuttle is phased out of service.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. John McCain to 
                       RADM Craig Steidle (Ret.)
    Question 1. Mr. Readdy's written statement states that the 
International Space Station (ISS) is preparing us for future human 
exploration in many ways, and that it is an exploration research and 
technology test bed. How critical is the completion of the ISS to the 
success for the President's Space New Vision? Is it on the critical 
path?
    Answer. In support of the Vision for Space Exploration, NASA will 
pursue international participation. Hence, it is important that NASA 
fulfill its commitments to our international partners--including flying 
the partner modules to the ISS. Furthermore, U.S. research on board the 
ISS will be refocused to better understand and counter the effects of 
space flight on astronaut health. Just as Gemini programs produced the 
knowledge that allowed us to reach our Apollo-era objectives, what we 
learn from ISS missions today and in the next few years will help us 
achieve the goals of traveling to the Moon, Mars, and beyond. ISS is on 
the critical path as a testbed for demonstration of future technologies 
as well as future operations and engineering capabilities.

    Question 2. Can you discuss your plans to include government 
diligence in the area of system engineering when programs and their 
contractors are in periods of transition and/or under severe cost 
pressures?
    Answer. A strong systems engineering and integration capability 
will provide the foundation for implementing the Spiral Development 
process. The government will work in partnership with industry to 
implement a strong systems engineering structure, relying on lessons 
learned from NASA and DOD programs. NASA has asked the National Academy 
of Engineering to recommend criteria for developing the systems 
engineering capability that will be required to integrate this complex 
system of systems and to execute a sustainable and affordable space 
exploration program. Critical elements of the systems engineering 
function will be a robust risk management process and independent cost 
assessment. Requirements development based on sound systems analysis is 
currently under way. These requirements will be validated by system 
concept designs by government and industry teams through directed 
government tasks and industry contracts from the Concept Exploration 
and Refinement Broad Agency Announcement that was released on June 14, 
2004.

    Question 3. Can you explain the spiral development concept?
    Answer. Spiral Development is an overarching strategic principle 
that the Exploration Systems Enterprise has adopted for the development 
of new capabilities. A single step acquisition strategy for a human 
presence on the Moon, as a precursor to Mars exploration, involves many 
uncertainties. To manage those uncertainties, the Enterprise is 
developing new capabilities in stages or ``spirals'' with evolving 
modular components. All spirals will be structured based on a well-
defined end state, specific requirements, current technologies, 
manageable risks, an executable budget, and knowledge gained through 
lessons learned from prior missions. To lower cost and improve 
performance, the Enterprise invests in the maturation of technologies 
for incorporation within modular components and inclusion in future 
spirals when the technologies are mature. In this way, technology 
development will transform future spirals without placing program 
execution at risk.
    In the first spiral, the focus will be on low-earth orbit 
operations. High-level milestones are: the flight of a prototype in 
2008; uncrewed Crew Exploration Vehicle (CEV) in 2011; and a first 
crewed CEV flight in 2014. In the second spiral, we will develop 
capabilities for extended human and robotic exploration on the moon. 
Future spirals will evolve based on the successful deployment of new 
capabilities, technology maturation, scientific discoveries, and budget 
and policy priorities.

    Question 4. There has been some discussion of canceling the Space 
Shuttle, and using funding from that program to accelerate the 
implementation of the President's New Space Vision? How would canceling 
the Space Shuttle affect your plans for development of the Crew 
Exploration Vehicle?
    Answer. The Vision for Space Exploration directs NASA to return the 
Space Shuttle to flight, focus use of the Space Shuttle to complete 
assembly of the ISS, and retire the Shuttle as soon as assembly of the 
ISS is completed, planned for the end of the decade. If the Space 
Shuttle were retired earlier than 2010, development of the CEV could 
likely be accelerated. The accelerated development may be possible 
because NASA could redirect funds now required to operate the Shuttle 
to support CEV development and other exploration activities. However, 
retiring the Space Shuttle before ISS assembly is complete would 
significantly impact the Nation's ability to conduct human space 
exploration and might prevent the United States from meeting its 
obligations to the international partners. Early Shuttle retirement 
could only be achieved by significantly reducing the final 
configuration of the ISS, which might prevent completion of vital ISS 
research that is needed to enable humans to travel back to the Moon and 
then on to Mars.
                                 ______
                                 
Response to Written Questions Submitted by Dr. George E. Mueller, Chief 
     Executive Officer, on Behalf of Kistler Aerospace Corporation
    On May 5, 2004, the Senate Subcommittee on Science, Technology, and 
Space held a hearing regarding ``Space Shuttle and the Future of Space 
Launch Vehicles.'' A number of questions were raised by Mr. Elon Musk 
of Space Exploration Technologies (SpaceX) in the oral and written 
testimony regarding Kistler Aerospace Corporation, the K-1 reusable 
aerospace vehicle, and Kistler's contract with NASA. In particular, Mr. 
Musk raised questions about the General Accounting Office (GAO) review 
currently underway regarding this NASA contract.
    It is our strong view that many of these points were either 
misleading or inaccurate, and we respectfully submit the following 
statement in order to clarify our position. Thank you for the 
opportunity. Kistler Aerospace Corporation would be happy to respond to 
future questions and would make itself available to the Subcommittee in 
any relevant context.

    Question 1. Who is Kistler Aerospace Corporation and what is the K-
1 reusable aerospace vehicle?
    Answer. Kistler Aerospace Corporation is a privately funded, U.S. 
small business, headquartered in Washington State. Kistler is 
developing the K-1 fully reusable aerospace vehicle, designed to 
deliver payloads to orbit and provide a low-cost alternative to single-
use launch vehicles. The company intends the K-1 to become the 
reliable, low-cost provider of launch services for commercial, civil, 
and military payloads destined for a wide range of orbits. The K-1 
mission capability includes cargo resupply to and return from the 
International Space Station (ISS); satellites, scientific payloads and 
technology experiments to Low Earth Orbit (LEO), Medium Earth Orbit 
(MEO), Geosynchronous Transfer Orbit (GTO); and space exploration 
missions to the Moon, Mars and Beyond.
    Kistler's senior management team has been involved in the United 
States space program for decades. I was the first head of the Office of 
Manned Space Flight at NASA, directed the program that put the first 
American on the moon, conceived the Shuttle and Skylab programs, and 
authored `An Integrated Space Plan,' which has guided our space 
programs since 1970.
    When I joined Kistler in 1995, several of my former associates 
assisted me in developing the requirements and architecture of the K-1 
vehicle, including Dale Myers, former President of North American 
Aircraft Operations and Vice President of Rockwell International (in 
charge of the B-1 bomber program) and former NASA Deputy Administrator 
and Associate Administrator of Manned Space Flight; Aaron Cohen, former 
head of NASA Johnson Space Center (JSC); and Henry Pohl, former Chief 
Engineer for JSC and ISS. Today, Joe Cuzzupoli, former Rockwell program 
manager for the Space Shuttle Orbiter project, and Dick Kohrs, former 
program director of NASA's Space Station Freedom and deputy director of 
the Shuttle, are in charge of completing the design and overseeing the 
manufacturing of the K-1.
    One of my legacies from the Apollo program was the use of ``all-
up'' testing on the Saturn V launch vehicle. This means that we 
designed, built, and tested the same full-scale Saturn V that was used 
to put men on the moon. We are using a similar process with the K-1. 
The K-1 in development today is the vehicle that will fly initial 
missions, starting with the very first flight.
    Kistler is the owner/operator of the K-1 program, with detailed 
design, manufacturing and test done by our contractors. Our contractor 
team includes some of the best the United States has to offer: Northrop 
Grumman Corporation (composite structures); Lockheed Martin Space 
Systems--Michoud Operations (aluminum propellant and oxidizer tanks); 
Aerojet--General Corporation (propulsion systems); Honeywell 
(avionics); Draper Laboratory (guidance and control); Irvin Aerospace 
(landing systems); Oceaneering Space Systems (thermal protection); as 
well as a number of smaller contractors.
    At the height of the K-1 development program, over 1,200 jobs were 
located in more than seven states, including Washington, California, 
Louisiana, Texas, New Jersey, Massachusetts and Florida, with 
additional testing conducted in Arizona and Virginia. This represents 
hundreds of millions of dollars of private investment. For plans going 
forward, these same contractor teams will be employed on the K-1 
program, also funded by private investment.
    As a result of the efforts of our management, employees and 
contractor team, our first K-1 vehicle is 75 percent built, 85 percent 
design complete, and first guidance, navigation and control (GN&C) 
flight software is 100 percent complete. All system requirements tasks 
have been completed, and numerous tests conducted, including full-
length firing of the K-1's main rocket engines, full-scale drop tests 
of the parachute recovery system, and Hardware-in-the-Loop testing of 
the K-1 flight avionics hardware and software.
    The K-1 will provide affordable, responsive access to space for 
many customers--NASA, Department of Defense and commercial--using the 
same vehicle and leveraging the inherent reusability and on-orbit 
maneuvering capability of the K-1. The K-1 can deliver 12,500 lbs to 
LEO (due east) as well as 3,500 lbs to GTO and 2,000-3,000 lbs to 
interplanetary targets (with an Active Dispenser upper stage). For 
future ISS resupply flights, our K-1 vehicle can deliver 7,000 pounds 
of pressurized cargo to the ISS, return more than 2,000 pounds of 
recoverable down mass to earth, and have the capability to reboost the 
ISS up to 40 miles. As a result we are the most likely new candidate 
for America to maintain vital support of an asset, the ISS, that the 
U.S. has spent significant dollars to create and within which we trust 
the lives of our astronauts. The K-1 will have the capability to 
service the ISS as frequently as needed, with regular monthly flights 
for routine logistics and launch on demand service.

    Question 2.What is the contract that Kistler Aerospace Corporation 
has with the National Aeronautics and Space Administration (NASA)?
    Answer. NASA awarded our current contract to Kistler in May 2001 as 
part of an open competition known as the Space Launch Initiative. On 
the same day, NASA awarded a total of 22 contracts worth over $800 
million to industry and university organizations. Under our existing 
contract, NASA is entitled to obtain and use pre and post flight data 
from 13 ``embedded technologies,'' which are technological innovations 
already built into the K-1 that are useful for future aerospace 
systems. In addition, NASA can exercise options to obtain data from one 
K-1 flight demonstrating its capability for Autonomous Rendezvous and 
Proximity Operations (ARPO). This data will demonstrate the ability of 
the K-1 and vehicles like it to navigate to and berth with the ISS, as 
well as have synergy with other commercial and military applications 
for on-orbit maneuvering.
    In February 2004, NASA issued a synopsis announcing its intent to 
exercise existing options and modify our existing contract to add data 
from four additional ARPO flights--flights in which the K-1 will 
demonstrate that it can navigate progressively closer to the ISS. 
NASA's decision came only after an extended process in which NASA 
evaluated the alternatives and concluded that only Kistler is in a 
position to meet NASA's needs in the time frame required. NASA recently 
issued what is known as a ``JOFOC'', or justification for other than 
full and open competition, describing this process. There is no doubt 
that NASA's decision is good news for Kistler. The original contract 
value, as announced by NASA, was worth up to $135 million, and the 
modification brings the total contract to approximately $227 million 
(of which $8 million has already been paid for data deliverables).
    Kistler's contract with NASA is a good deal for the government. 
NASA pays neither to develop the K-1 vehicle nor for launch services. 
Rather, NASA pays only for data, and only upon performance. It has no 
obligation to pay until data are delivered and accepted. This allows 
the government to leverage private capital investment in the K-1 for 
broad government and industry benefit, without any upfront risk or 
expenditure. Further, NASA has made clear that any contracts for ISS 
resupply launch services will be subject to a separate procurement. 
Kistler has supported this position completely.
    One of our competitors, a company called Space Exploration 
Technologies (SpaceX), has protested NASA's decision with the General 
Accounting Office (GAO). Kistler believes that NASA acted properly, and 
indeed did more than was required to evaluate the alternatives. In the 
end, the GAO will decide the protest (expected by July 9, 2004), and we 
have every confidence that the outcome will sustain NASA's award to 
Kistler.
    SpaceX has also recently sought to make Kistler's contract with 
NASA a political issue, presenting a blurred view of the facts, and 
even seeking to introduce testimony regarding the contract at the 
above-referenced Hearing of this Senate Subcommittee on another matter, 
which the committee declined to hear. We regret SpaceX's approach, if 
for no other reason than it seeks to circumvent the GAO's process and 
unnecessarily delays data that America's space program really needs, 
and that Kistler is in the unique position to provide.

    Question 3. What is Kistler's financial situation?
    Answer. Kistler is a privately-funded, U.S. small business, and has 
raised more than $600 million in private investment and spent more than 
$800 million on the K-1 program. This is a significant undertaking, 
particularly in an industry where nearly every existing launch vehicle 
has been funded by government development money.
    In order to restructure our existing debt and equity and to enable 
us to raise additional capital to complete the development of the K-1 
Program, Kistler filed for relief under Chapter 11 of the U.S. 
Bankruptcy Code on July 15, 2003. Continuing business as usual, we have 
operated post-filing as a debtor in possession (DIP) and arranged for 
in excess of $4.5 million of financing from our primary pre-filing 
secured lenders.
    Bay Harbour Management LLC, a well-known firm specializing in 
reorganizing and funding distressed companies, has committed to lead 
the financial reorganization of Kistler. We anticipate filing a plan of 
reorganization that will restructure the current debt and equity and 
enable us to secure approximately $450 million of new capital that sets 
the stage for completion of the K-1 program.
    We fully expect to emerge from Chapter 11 this year, with the first 
K-1 flight expected to occur 15-18 months after re-start.
    Although Kistler continues to function and is fully confident it 
will reorganize stronger than ever, it is important to reiterate that 
even if we were to fail, the government still has no liability 
whatsoever. The contract is a ``pay-for-performance'' contract with a 
set expiration date. Only when we have produced does the government 
pay. If we cannot produce the data, the government does not pay.

    Question 4. What engines are used by the K-1 reusable aerospace 
vehicle?
    Answer. Liquid-propellant engines from Aerojet, a leading U.S. 
propulsion contractor based in Sacramento, California, have been 
selected to power the K-1. The two AJ26-58 and one AJ26-59 engine on 
the first stage and the AJ26-60 engine on the second stage are U.S. 
modifications of the fully developed, extensively tested core of the 
NK-33/NK-43 engines originally designed for the Russian Manned Moon 
Program in the mid 1960s and subsequently placed in storage in Samara, 
Russia, for over two decades.
    Aerojet purchased a large quantity of these engines in the mid 
1990s, and currently has 47 at its Sacramento facility--enough for up 
to 180 flights of the K-l vehicle. Aerojet also has in its possession 
the intellectual property (engineering drawings, materiel 
specifications, etc.) and the licensing provisos for U.S. modifications 
and/or production, contingent on a case-by-case approval of the end-use 
of these engines. Approvals were obtained for use of these engines on 
the Kistler K-1 vehicle.
    To meet the K-1 requirements, Aerojet has already modified, 
upgraded, and test-fired a number of the engines with modern U.S. 
electronic controllers, ignition systems, control valves, and thrust 
vector control systems.

    Question 5. What launch sites is Kistler planning?
    Answer. Kistler Aerospace Corporation currently plans to establish 
two launch sites for operating the K-1 reusable aerospace vehicles: 
Woomera, Australia and Nevada, USA. Environmental approval has been 
received at both sites. Test flights and initial commercial operations 
are planned from Spaceport Woomera, located in the Woomera Prohibited 
Area, a 127,000 square kilometer region in the desert of South 
Australia, about 470 km (280 miles) north of Adelaide. A second launch 
site is planned in the U.S., at the Nevada Test Site, near Las Vegas, 
Nevada, USA, after demonstrating successful flights in Australia. The 
launch sites will have nearly identical facilities, infrastructure and 
support equipment. Reynold Smith and Hill (RS&H) of Merritt Island, 
Florida, which designed launch pads at Cape Canaveral, has completed 
detailed design of the K-1 launch facility and support equipment.
    Woomera, Australia, has over a 50-year history supporting space 
programs, including a long and strong relationship with the United 
States. For example, the U.S. Redstone rocket successfully deployed the 
WRESAT satellite in 1967; NASA Black Brandt sounding rockets have been 
launched from there; and from 1968 through 1999, Woomera supported 
joint U.S./Australian defense operations at Nurrungar (about 19km south 
of Woomera Village) for the then-classified Defense Satellite 
Communication Station, used as an intelligence outpost for early 
warning. Woomera is an ideal base to safely conduct orbital launch and 
recovery operations for reusable vehicles in terms of existing 
infrastructure, population density, topography and weather.
    The process of obtaining a license from the FAA, for launch and 
recovery on land, represents a major hurdle for any fully reusable 
aerospace vehicle. As an alternative, Kistler selected Woomera with the 
full understanding of the Federal Aviation Administration's Commercial 
Space Transportation Organization (FAA/AST). Kistler plans to re-engage 
with the FAA/AST after successful K-1 flights in Australia using actual 
flight data to obtain the license. Nonetheless, the option of flying 
first commercially in the United States is not available as long as the 
FAA/AST assumes a probability of failure of one during overflight.
    In addition, Kistler has surveyed multiple other sites for 
suitability of potential K-1 operations in the continental United 
States, including the Fort Stockton area in Texas, the X-33 facilities 
in Edwards, California, the Alamagordo area in New Mexico, as well as 
the Florida Space Authority regarding potential launch and landing 
sites at Cape Canaveral. Undoubtedly, having a U.S. site--earlier 
rather than later--would facilitate easier logistics for some potential 
K-1 customers.
    In closing, thank you for the opportunity to submit this response 
for the record. Please feel free to contact me with any questions. 
Additional information on Kistler Aerospace Corporation and the K-1 
reusable vehicle can be found on our website at: 
www.kistleraerospace.com or by E-mail request to <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="9ff6f1f9f0dff4f6ecebf3faedfefaedf0b1fcf0f2b1">[email&#160;protected]</a>
                                 ______
                                 
        Resume of Dr. George E. Mueller, Chief Executive Officer
    Dr. George E. Mueller is Chief Executive Officer of Kistler 
Aerospace Corporation, developer of the K-1 fully reusable aerospace 
vehicle. He joined Kistler, a privately funded small business, in 1995, 
continuing a distinguished career in space, science, engineering and 
corporate management. Dr. Mueller led the program that put Americans on 
the moon. In 1963, having led successful space programs at Ramo 
Wooldridge Corporation, he was selected to take over the Apollo Project 
by NASA Administrator James E. Webb. As Head of Manned Space Flight, he 
was responsible for the Gemini, Apollo and Saturn programs, while the 
Kennedy, Marshall and Johnson Space Centers reported to him. From the 
beginning of Gemini in 1963 through the second Apollo moon landing in 
1969, Dr. Mueller directed the U.S. Space Program as NASA Associate 
Administrator for Manned Space Flight.
    Mueller's leadership made possible the achievement of the national 
goal set in 1961: the landing of men on the moon and their safe return 
to Earth by the end of the decade. To accomplish this goal, he 
synergized the activities of 20,000 industrial firms, 200 universities 
and colleges, and hundreds of thousands of individuals into one 
concerted effort. Throughout the highs and lows of the Apollo program, 
George Mueller inspired industry, NASA, the citizenry, and the 
legislative and executive branches of the government to overcome 
adversity and meet the challenge of the Apollo program.
    George Mueller is also the originator of Skylab, the world's first 
space station, and is regarded as the ``Father of the Space Shuttle.'' 
His post-Apollo plan, ``An Integrated Program of Space Utilization and 
Exploration,'' became the guiding document for NASA for the past 
several decades.
    After leaving NASA, Dr. Mueller was Senior Vice President of 
General Dynamics Corporation, Chairman and President of System 
Development Corporation and Senior Vice President of Burroughs 
Corporation.
    George Mueller began his career in 1940 as a Member of the 
Technical Staff with Bell Telephone Laboratories where he designed the 
10cm ``polyrod'' antenna and other receivers. From 1946-1957 he was a 
Professor of Electrical Engineering at The Ohio State University where 
he developed the communications engineering curriculum and 
laboratories.
    Dr. Mueller is a Member or Fellow of the American Association for 
the Advancement of Science, National Academy of Engineering, American 
Geophysical Union, American Astronautical Society, Institute of 
Electrical and Electronics Engineers, Royal Aeronautical Society, and 
French Academy of Astronautics. He is an Honorary Fellow of the 
American Institute of Aeronautics and Astronautics (AIAA) and British 
Interplanetary Society. Dr. Mueller has served as President of the AIAA 
from 1979-1980 and of the International Academy of Astronautics from 
1982-1997.
    Dr. Mueller holds a Ph.D. in Physics from The Ohio State 
University, an M.S.E.E. from Purdue University, and a B.S.E.E. from the 
University of Missouri at Rolla. In addition, he has honorary 
doctorates from six universities. Eighteen international awards have 
been bestowed on him, including three NASA Distinguished Service 
Medals, Apollo Achievement Award, American Astronautical Society Space 
Flight Award, American Academy of Achievement Gold Plate Award, Elmer 
Sperry National Transportation Award, Medal of Paris, American 
Institute of Aeronautics & Astronautics Goddard Medal, International 
Peace Cooperation Award--Russia, Gagarin Space Medal, United Societies 
in Space 1997 Space Humanitarian Award, the National Space Society's 
Wernher Von Braun Memorial Award, the National Award for Space 
Achievement in 2002, one of Aviation Week's Top 100 Stars of Aerospace, 
and the American Astronautical Society's Lloyd V. Berkner Award. Dr. 
Mueller was awarded the National Medal of Science for his many 
individual contributions to the design of the Apollo systems.

                                  [all]

                  This page intentionally left blank.
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
